<html>
<title> - [H.A.S.C. No. 115-3] The State of The World: National Security Threats and Challenges</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                          [H.A.S.C. No. 115-3]

    THE STATE OF THE WORLD: NATIONAL SECURITY THREATS AND CHALLENGES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 1, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

McLaughlin, John E., Johns Hopkins School of Advanced 
  International Studies, Former Deputy Director and Acting 
  Director of the Central Intelligence Agency....................     8
Petraeus, GEN David H., USA (Ret.), Chairman, KKR Global 
  Institute, Former Commander of U.S. Central Command and 
  Director of the Central Intelligence Agency....................     3

                                APPENDIX

Prepared Statements:

    McLaughlin, John E...........................................    68
    Petraeus, GEN David H........................................    59

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    83
    Mr. O'Rourke.................................................    85
    Ms. Stefanik.................................................    84
    
    
    THE STATE OF THE WORLD: NATIONAL SECURITY THREATS AND CHALLENGES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, February 1, 2017.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    I want to welcome our witnesses, members, and guests to the 
first hearing of the House Armed Services Committee [HASC] in 
the 115th Congress. It seems to me that a good place for us to 
start this year is to ask the question: What is the state of 
the world in which the U.S. military must operate and in which 
U.S. national security must be protected?
    Two years ago at a similar hearing, I quoted Dr. Henry 
Kissinger, who said the United States has not faced a more 
diverse and complex array of crises since the end of the Second 
World War. I am not sure that anything has been simplified or 
made easier in the last 2 years; in fact, I think the world has 
only grown more dangerous.
    What is indisputable is that our own military has grown 
smaller and has been damaged by budget cuts and other factors 
in recent years. I look forward to working with my colleagues 
in the new administration to turn that around.
    But, at the same time, we cannot just pour more money into 
a system that may have served us well during the Cold War, but 
does not have the agility necessary to meet the wide array of 
complex challenges we face today and into the future.
    This committee will continue to push defense reform related 
to organization, acquisition, authorities, and personnel, 
including the intellectual development of the outstanding men 
and women who serve our country in the Department of Defense.
    A challenge we all face, however, is sorting through which 
issues are more and less important. To quote Dr. Kissinger 
again, ``because information is so accessible and communication 
instantaneous, there is a diminution of focus on its 
significance or even on the definition of what is 
significant.''
    It is certainly true that 24-hour news and the internet can 
make perspective hard to come by. That is the reason I am so 
grateful to have our two witnesses today, each of whom have had 
outstanding careers serving our country. They can help us to 
sort through the torrent of news and information and to 
identify the most important threats and the most important 
trends affecting the national security of the United States.
    Before turning to them, let me yield to the ranking member 
for any comments he would like to make.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I agree with you; I 
think this hearing is very appropriate. And I welcome our two 
witnesses and their expertise, and I think this will be very 
informative.
    And I also agree with you that we face an incredibly 
complex threat environment. Between North Korea and Iran, 
Russia, China, obviously radical Islamist extremism in a 
variety of different forms throughout the globe, it is a 
complicated threat environment.
    As far as the size of the military is concerned, just the 
two issues that I want to raise that hopefully will be 
addressed as we deal with that, we did spend $619 billion, or I 
should say are spending $619 billion, for fiscal year 2017 on 
our defense budget, which is, again, far and away more than any 
other country in the world by a fairly comfortable margin. And, 
yes, the size of our military has come down, but let's keep in 
mind that it has come down from a military that I believe at 
its peak had somewhere close to 200,000 of our troops deployed 
in combat zones, primarily Afghanistan and Iraq, and that 
number is now significantly smaller.
    I will also agree with the chairman that we have to figure 
out how to spend the money smarter, and that really gets me to 
the points I want to raise.
    As we look forward and if we are looking at the budget and 
saying, oh, my goodness, we have this incredible threat 
environment, we need to spend more on defense, we have to find, 
you know, more troops, we have to find more ships, we have to 
find more intelligence, surveillance, and reconnaissance, and 
on and on and on, we also have to look at the fact that we have 
a debt that I believe is now close to $20 trillion and a 
deficit that--I forget the exact number but I believe to this 
year was $580 billion. And, ironically, we were kind of happy 
about that because it was better than the $1 trillion that it 
had been a few years ago, but it is projected to go up.
    So if we look at all of this and even if we look at ways to 
reform and get more out of our money and we still say, look, we 
need more money for defense, we are going to have to look at 
the entire budget to figure out how to do that. And I will 
suggest that, you know, cutting taxes again by multi-trillion 
dollars is not going to make that easier. If we look at our 
country's needs and say we need more, to then say we are going 
to bring in less revenue is a questionable approach.
    I think the second thing that is really important when we 
look at this complex threat environment and our finite amount 
of resources is the incredible importance of alliances. And 
that is what alarms me slightly about the ``America first'' 
approach. To a certain extent, of course, we are Americans; we 
are always going to put ourselves first. But when we look at 
what we are going to have to do to combat that threat 
environment, we are going to need other countries. We are not 
going to be able to get there if we continuously offend them 
and push them away, and belittle alliances that have served us 
quite well since World War II.
    I mean, just to cite one example, on the Horn of Africa, we 
have been quite successful, relatively speaking, in dealing 
with Al Shabaab and the difficulties in Somalia and then the 
difficulties right across the sea in Yemen, and we have done 
that with a relatively low U.S. footprint. How have we done it? 
We partnered with Kenya and Ethiopia and Uganda and Rwanda and 
Djibouti. We have partnered with nations that were friendly to 
us and willing to help us. So I think partnerships are going to 
be enormously important.
    So I hope to hear from the witnesses today their thoughts 
on how we deal with the budget challenge. And I don't want to 
hear we need 350 ships, we need, you know, 500--I want to hear 
how we are going to get there, how are we going to make that 
work financially and have a national security plan that fits 
into what is likely to be our budget.
    And, with that, I yield back and look forward to the 
testimony and the questions from the panel. Thank you.
    The Chairman. I am pleased to welcome two witnesses who 
really don't need an introduction. You have detailed bios that 
have been provided.
    I would simply say General David Petraeus spent 37 years in 
the Army, former commander of our coalition forces in Iraq, 
Afghanistan, as well as commander of the U.S. Central Command, 
Director of the CIA [Central Intelligence Agency], and is now 
chairman of KKR Global Institute.
    Mr. John McLaughlin, career CIA analyst focusing first on 
Europe and Russia, former Deputy Director and Acting Director 
of the CIA, created the CIA's Senior Analytic Service and 
founded the Sherman Kent School for Intelligence Analysis, and 
now is at the Johns Hopkins School of Advanced International 
Studies.
    Again, to both of you, thank you for being here. Without 
objection, your full written statement will be made part of the 
record, and we would be pleased to hear any comments you would 
like to make at this point.
    General Petraeus.

 STATEMENT OF GEN DAVID H. PETRAEUS, USA (RET.), CHAIRMAN, KKR 
GLOBAL INSTITUTE, FORMER COMMANDER OF U.S. CENTRAL COMMAND AND 
          DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY

    General Petraeus. Mr. Chairman, thank you very much. 
Ranking Member Smith, members of the committee, thanks for the 
opportunity to testify today. It is a privilege to be with the 
HASC once again and to be here with my friend John McLaughlin, 
a former Deputy Director of the CIA, as was mentioned, and 
someone whose counsel I sought on numerous occasions during my 
time in government and beyond.
    This morning, in fact, we will try to complement each 
other's opening statements. I will highlight the increasingly 
complex and serious threats--and I agree with Dr. Kissinger's 
assessment, by the way--those threats to the international 
order that has stood us in reasonably good stead since the end 
of World War II. And John will provide a more detailed 
accounting of the specific threats we face. And we will both be 
ready to address questions on the debilitating effects on our 
defense capabilities of sequestration, the failure to pass 
defense budgets in a timely manner, and excess basing.
    In thinking about the topic of today's hearing, the state 
of the world, I was reminded of Winston Churchill's famous 
adage, the farther back you can look, the farther forward you 
are likely to see. So, before turning to where we are in the 
world today, I think it would be useful to consider where we 
have been and how we got to where we are now.
    A little more than a century ago, at the dawn of the 20th 
century, Americans had reason to be hopeful. The great powers 
were at peace, economic interdependence among nations was 
increasing, miraculous new technologies were appearing at 
dizzying speed.
    Yet this optimistic vision would soon fall to pieces. 
Instead, the first half of the 20th century would prove to be 
the bloodiest, most devastating period in human history, with 
the two most destructive wars in history, the worst economic 
collapse in history, and the near takeover of the planet by an 
alliance of dictatorships responsible for the worst crimes 
against humanity in history.
    The United States came of age as a world power amidst the 
rubble left by this succession of calamities and resolved, in 
the wake of 1945, to try to prevent them from ever happening 
again. To keep the peace, we led an effort to establish a 
system of global alliances and security commitments 
underwritten by U.S. military power and the deployment of our 
forces to bases in Europe and Asia.
    To create a foundation for prosperity, we put in place an 
open, free, and rules-based international economic order 
intended to safeguard against the spiral of protectionism that 
would produce the impoverishment and radicalization of the 
1930s. And to protect freedom here at home, we adopted a 
foreign policy that sought to protect and, where possible, 
promote freedom abroad, along with human rights and rule of 
law.
    These were the bipartisan foundations for the international 
order that emerged after World War II. They were the product of 
American leadership, American power, and American values. And, 
while imperfect, on balance, they succeeded.
    The extent of that success can be seen when we compare the 
first half of the 20th century with the second half of that 
century, a period that witnessed the longest stretch without a 
great power war in centuries, the most dramatic expansion of 
human prosperity in history, and the spread of democracy to 
every inhabited continent on the planet.
    To borrow a phrase from the historian Robert Kagan, this is 
the world that America made. It is also the world that I fear 
is now in danger of being unmade.
    The international order that America created is now under 
unprecedented threat from multiple directions, including by 
increasingly capable revisionist powers--that is, countries 
dissatisfied with the status quo--by Islamic extremist 
organizations that want to destroy our way of life, and by 
technologies and tactics that are reducing America's capacity 
to defend ourselves and our interests.
    As important as those various threats are, however, the 
world order has also been undermined by something perhaps even 
more pernicious: a loss of self-confidence, resolve, and 
strategic clarity on America's part about our vital interest in 
preserving and protecting the system we sacrificed so much to 
bring into being and have sacrificed so much to preserve.
    The major challenge to the U.S.-led international order, 
the rise of a set of revisionist powers, is a development 
Americans have recognized but been somewhat reluctant to 
confront. Since the end of the Cold War, our hopeful assumption 
has been that mutual self-interest could provide a pathway for 
deepening partnership among the major powers while 
globalization would gradually liberalize the internal policies 
of all countries.
    What we have seen instead, unfortunately, is that, as 
certain countries have grown more powerful, so too has their 
desire to challenge at least some elements of the status quo, 
while domestically their authoritarianism has grown both more 
entrenched and yet also more insecure.
    In particular, we see several countries, including Iran, 
Russia, and China, now working to establish a kind of sphere of 
influence over their respective near-abroads, which include 
areas of vital strategic importance to the U.S. and where we 
have allies and partners to whom we are bound by shared 
interests and values.
    To be sure, each of the revisionist powers requires a very 
different approach on America's part. China, for example, is 
not just a rising great power and strategic competitor; it is 
also our number-one trading partner, and our relationship with 
it is the most important relationship in the world.
    In fact, in each case, our relationship inevitably combines 
some aspects of intensifying rivalry with other aspects of 
shared interest, including the need to develop some concept of 
mutual restraint and respect. The challenge for the U.S. is to 
find the often elusive equilibrium, something that is likely to 
occur only if we combine hardheaded diplomacy with an equally 
hardheaded reinvestment in shoring up what has become a 
deteriorating balance of power.
    A very different, far more radical revisionist force 
threatening the international order is Islamic extremism, the 
ideology that animates the Islamic State and Al Qaeda and their 
affiliates. The greatest weakness of Islamic extremism is also 
its greatest strength, which is its protean ability to exist 
and indeed thrive without inhabiting a conventional nation-
state. What it lacks in traditional power terms, it compensates 
for in conviction, resilience, resourcefulness, and ferocity. 
And in its hydra-like qualities, it is unlike any adversary we 
have faced before.
    What is still missing, in many cases, is the truly 
comprehensive approach needed to combat these extremists, 
though, to be fair, there has been progress in recent years in 
developing an approach that enables local partners and allows 
us to achieve a sustainable strategy, with sustainability being 
measured in blood and treasure and sustainability being an 
essential quality given the likely duration of the struggle in 
which we are engaged, which I have characterized as 
generational in nature.
    The defeat of Islamic extremist groups does, of course, 
require a vital military component. But even if we succeed 
militarily in metaphorically putting a stake through the heart 
of Daesh elements in Iraq and Syria, as I believe we will, that 
success will be fleeting unless the underlying conflicts in 
those countries and the greater Middle East that enabled the 
ISIL's [Islamic State of Iraq and the Levant's] rise are 
addressed and resolved.
    We must also recognize that long-term success in this 
conflict requires that the ideology of Islamic extremists is 
itself discredited. And contending with the ideological 
caliphate in cyberspace may well prove more challenging than 
taking away the rest of what is now a shrinking physical 
caliphate on the ground in Iraq and Syria.
    Here I should note that our most important ally in this war 
is the overwhelming majority of Muslims who reject Al Qaeda, 
Daesh, and their fanatical, barbaric worldview. Indeed, it is 
millions of Muslims who are fighting and dying in the greatest 
numbers on the front lines of this war, including Arab and 
Kurdish fighters bravely battling ISIL in Mosul, Gulf Arab 
forces taking the fight to AQAP [Al Qaeda in the Arabian 
Peninsula] in Yemen, Afghans courageously struggling against a 
resurgent Taliban and a nascent Islamic State affiliate, Somali 
forces confronting Al Shabaab, and the Libyan elements that 
recently drove another Islamic State entity from the enclave it 
had seized on the North African coast.
    We must also remember that Islamic extremists want to 
portray this fight as a clash of civilizations, with America at 
war against Islam. We must not let them do that. Indeed, we 
must be very sensitive to actions that might give them 
ammunition in such an effort.
    Compounding the danger posed by revisionist forces are 
technologies that are eroding America's conventional military 
edge. In this respect, the wars of the post-9/11 period were, 
in some respects, a preview of the future. While the U.S. 
deployed forces into Iraq and Afghanistan that were superbly 
constructed for rapid, decisive operations of the kind that we 
waged during the Gulf war in 1991, our adversaries responded 
with strategies that for a fraction of the cost nullified many 
of our advantages.
    What Islamic extremists demonstrated through insurgency and 
terrorism, revisionist powers like Russia, China, and Iran 
promise to take to a whole new level of sophistication and with 
much more sophisticated weaponry as well.
    Among the fast-developing tools in their arsenals are anti-
access area-denial weapons that will complicate our ability to 
project power into vital regions and uphold our security 
commitments; increasingly capable cyber weapons for employment 
alone in attacks on infrastructure or in influence campaigns or 
in support of conventional and unconventional force operations, 
including so-called hybrid warfare; a renewed emphasis on 
nuclear weapons and threats to U.S. primacy in space, a vital 
sanctuary for U.S. military power that is increasingly 
contested. These are all serious threats, and John will 
enumerate them further in his opening statement.
    Despite these challenges, I believe America is in a 
commanding position to sustain and indeed bolster the 
international order that has served us and, paradoxically, some 
of those seeking to change it as well. We have an extraordinary 
network of partners who are stakeholders in the current order 
and can be mobilized far more effectively for its defense. Our 
economy remains the largest in the world and an engine of 
unsurpassed innovation. And as a result of America's values, 
political pluralism, rule of law, our free and open society, we 
can recruit the best and brightest from every corner of the 
planet, a strategic advantage that none of our competitors can 
match.
    The paradox of the moment is that, just as the threats to 
the world order we created have grown ever more apparent, 
American resolve about its defense has become somewhat 
ambivalent. To be clear, America cannot do everything 
everywhere. Indeed, no one understands that better than the 
individual who was privileged to command the surge in Iraq and 
the surge in Afghanistan. But when the most egregious 
violations of the most basic principles of the international 
order we helped shape are tolerated or excused, that lack of 
action undermines the entire system and is an invitation to 
further challenges.
    Americans should not take the current international order 
for granted. It did not will itself into existence. We created 
it. Likewise, it is not naturally self-sustaining. We have 
sustained it. If we stop doing so, it will fray and eventually 
collapse.
    This is precisely what some of our adversaries seek to 
encourage. President Putin, for example, understands that while 
conventional aggression may occasionally enable Russia to grab 
a bit of land on its periphery, the real center of gravity is 
the political will of the major democratic powers to defend 
Euro-Atlantic institutions like NATO [North Atlantic Treaty 
Organization] and the EU [European Union]. That is why Russia 
is tenaciously working to sow doubt about the legitimacy of 
these institutions and our entire democratic way of life.
    Perhaps because Russian civilization has a foot in the 
West, Russia as a great power has always been well-positioned, 
in a way that China and Iran are not, to wage ideological 
warfare that eats at the Euro-Atlantic world from within.
    In this respect, Mr. Chairman, I would argue that repulsing 
this challenge is as much a test of America's faith in our best 
traditions and values as it is of our military strength, though 
our military strength obviously is a crucial component of our 
national power and does need shoring up, as you and your Senate 
counterpart have explained so clearly.
    I began my remarks this morning by evoking a dark time in 
the history of mankind. Yet it was only at our darkest hour in 
the 1940s that we summoned the imagination and determination to 
build the world order of which all of us here today have been 
many lucky heirs. Perhaps it is in the nature of humanity that 
only when we come to grasp fully how bad things could be were 
we capable of galvanizing ourselves to set them right.
    That is also the great responsibility and equally great 
opportunity that those in positions of power have before them 
now: to conjure out of the accelerating crises and deepening 
challenges of the moment a world that is better than the one we 
inherited. And it is my hope that we will demonstrate the will 
and commit the resources needed to do just that.
    Mr. Chairman, I have typically ended my testimony before 
the House and Senate Armed Services Committees in the past by 
thanking the committee members for their steadfast support of 
our men and women in uniform, particularly during the post-9/11 
period. I end my statement this morning the same way, repeating 
the gratitude that those in uniform felt during the height of 
our engagements in Iraq and Afghanistan for the committee's 
extraordinary support for so many critical initiatives on and 
off the battlefield, even when some members questioned the 
policies we were executing.
    I can assure you that this committee's unwavering support 
of those serving our Nation in uniform means a great deal to 
those on the battlefield and to those supporting them. And it 
is with those great Americans in mind that I have offered my 
thoughts here this morning.
    Thank you very much.
    [The prepared statement of General Petraeus can be found in 
the Appendix on page 59.]
    The Chairman. Thank you.
    Mr. McLaughlin.

   STATEMENT OF JOHN E. McLAUGHLIN, JOHNS HOPKINS SCHOOL OF 
  ADVANCED INTERNATIONAL STUDIES, FORMER DEPUTY DIRECTOR AND 
       ACTING DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY

    Mr. McLaughlin. Mr. Chairman and Ranking Member Smith, 
members of the committee, thanks so much for the opportunity to 
testify to this great committee. And thanks so much for pairing 
me with my friend, General David Petraeus, who has done so much 
at home and abroad to advance American interests and keep our 
Nation secure.
    Your ambitious title, ``The State of the World,'' is enough 
to make any briefer a little humble. You have a lengthy, 
detailed written statement from me, so I am going to summarize 
it quickly so we can get to your questions.
    You know, as General Petraeus points out, the world is 
going through a major transition toward one that more closely 
resembles the great power politics, the balance-of-power period 
that predates the Cold War. Meanwhile, the norms that make up 
the global order, as General Petraeus has said, are under 
challenge, as Russia, China, and others test the sanctity of 
borders, the rules governing the maritime and air domains. And 
without consensus on rules, the international order, the 
international system, slips into chaos. This is the story of 
the 20th century.
    My testimony does two things to elaborate on this. First, I 
sketch some of the broad global trends that will condition 
everything else in coming years. And then I am going to look at 
some specific issues, arraying them along a spectrum from those 
that are urgent to those that are longer range or emerging.
    First, global trends, big things that affect everything 
else. First, we are witnessing a diffusion of power among 
nations. The U.S. will remain, I am convinced, the single most 
influential country in the world, but, as General Petraeus 
suggested, success for us will center on our ability to manage 
alliances and build coalitions.
    Second, demographic trends over the next couple decades 
will contribute to societal stresses and instability. By 2035, 
world population will hit 8.3 billion, but less than 3 percent 
of this growth is going to occur in the developed world. So 
that means that demand for services will be rising precisely in 
those parts of the world least able to handle that.
    Third, we are seeing a growing discontent with governance 
almost everywhere: our own election; populist movements in 
Europe; Brexit in the U.K. [United Kingdom]; years ago the Arab 
Spring, where those pressures are still just under the surface.
    And, fourth and finally, a technology revolution greater in 
speed and scope than anything we have experienced in the 20th 
century or the 21st century so far. Last century, it was 
physics and engineering; this century, it is information 
technology, biotechnology, nanotechnology, robotics, and all of 
these jammed together in a continuously inventive way, and not 
always by the United States.
    One symptom is the devolution of power to individuals, 
asymmetric power you might say--social media, for example. And 
they are free to use this for good or evil in measures beyond 
anything we have experienced in the past.
    So now let's turn to some specific issues and start with 
the urgent. Now, ``urgent'' for me means those that threaten 
the lives of Americans and our closest allies or the physical 
security of the United States. Those are the things that are 
urgent on an immediate and ongoing basis. So that takes me to 
things like terrorism, nuclear weapons, cyber.
    On terrorism, ISIS [Islamic State of Iraq and Syria] is 
still a very serious threat, but I think it is weaker on four 
of the five measures that I mentioned the last time I testified 
to this committee about a year ago. It has less territory, less 
money, a slowing recruitment pipeline, and a less attractive 
narrative. But it is still strong on the final measure that I 
mentioned: access to us, to targets.
    By virtue of having gathered so many more foreign fighters 
from the West, close to 7,000 at its height, its jihadists can 
filter back into Western societies and neighboring societies, 
including Russia. Nineteen hundred have reportedly already 
returned to Europe, where, based on my experience with those 
security services, they have to be stretched to the limit.
    Moreover, ISIS has a more robust international network than 
Al Qaeda ever had and, if driven out of Syria and Iraq, can 
shelter and plot in dozens of countries around the world.
    Al Qaeda, meanwhile, is not out of business. It is working 
to exploit ISIS's weakening position in Syria and Iraq. And its 
Yemen branch, responsible for the Charlie Hebdo attacks in 
Paris and for several attempts against the U.S. homeland, is 
using the civil war there in Syria to seize additional 
territory and sink deeper roots.
    On the nuclear front, the most urgent issue facing us, as 
you have already referred to, is North Korea. They have been 
working on an ICBM [intercontinental ballistic missile] since 
the mid-1990s. They achieved staged separation at altitude in 
1998. They have since launched 2 satellites with multistage 
rockets, they have carried out 5 nuclear tests, and reportedly 
have between 12 and 20 nuclear weapons, with the potential to 
go to about 100 in the next 5 years. The bottom line here: The 
odds are high that they will get to a nuclear ICBM capability 
during this administration and possibly even during the current 
Congress.
    On cyber, the Russian hacking of our election, the reported 
Chinese steal of OPM [Office of Personnel Management] data, 
illustrate our vulnerability. We can tighten our defenses, of 
course, but we need something more, possibly some international 
agreements on what norms govern this domain on which the entire 
world depends. Some work is underway on that in the G20 [Group 
of Twenty], but it is very early.
    Now, in today's world, everything can be seen as urgent, 
but let's call this next batch of issues ongoing and vitally 
important. And I am going to mention four.
    First, the Middle East. All of its problems converge in 
Syria. Syria's importance is in the long list of things that 
will be affected by how it ends. Consider them: the durability 
of ISIS; U.S. standing in the region; Russia's influence there; 
Iran's reach beyond its borders; Turkey's clout in the region; 
how Turkey balances its NATO commitments with its budding 
partnership with Russia; the flow of migrants to Europe, where 
perceptions of overload played into the U.K.'s Brexit decision 
and have increased centrifugal pressures within the European 
Union.
    Second, Europe itself, contending simultaneously with at 
least four destabilizing trends. We used to take Europe for 
granted. No more. The volatility of the euro, the migration 
crisis, the centrifugal forces strengthened by Brexit, the 
challenges to existing borders flowing from Russians' actions 
in the east--this at the very center of America's traditional 
and most reliable alliance partnership.
    Third, China is moving aggressively to check U.S. influence 
and dominate Asia. China's economic growth, on the one hand, is 
at a 25-year low, but President Xi has not stopped from 
fielding potentially transformational initiatives like the 
Asian Infrastructure Investment Bank most of our allies have 
joined and the New Silk Road trade and transportation network 
connecting China with the Middle East and Europe. Moreover, he 
is moving into a vacuum created by our withdrawal from the 
Trans-Pacific Partnership by pushing a competing initiative 
that will pull in 16 of the world's fastest-growing economies, 
comprising about one-half of the world's population.
    Here is my point: Our Asian allies, whose trade is already 
heavily oriented--30 percent for Australia, for example--are 
deeply worried they will be pulled into China's economic orbit 
if the U.S. does not stay heavily engaged.
    Fourth, regarding Russia, I came away from a recent trip 
there, in which I also stopped in Ukraine and Latvia, impressed 
with the hostility of Russians' narrative and Putin's 
domination of the media and the opposition. Meanwhile, there is 
no let-up of Russian pressure on Ukraine; you can see it in The 
Washington Post this morning. But Putin will still be 
maneuvering to get Western sanctions lifted.
    Now, let me say, there is no harm in seeking an improved 
relationship with Russia. I remember times when we had such a 
relationship. But in any bargaining we need to know our own 
interests clearly and calculate them as dispassionately, as 
coldly, as clinically as Putin will calculate his. 
Historically, when Russia encounters weakness or hesitation, it 
demands more. Then it blames the opponent for escalation when 
the opponent resists. Then it calls for discussions, which it 
uses to consolidate its gains. So deals with Russia will not 
come easily.
    Another batch of issues are those that will be emerging or 
evolving in days ahead. Let me mention just two, one fairly 
obvious, the other less so.
    First, the Iran nuclear deal. As a compromise, it is by 
definition not perfect, but Iran is giving up 98 percent of its 
enriched stockpile of uranium and mothballing about 13,000 
centrifuges--you know these things--and all of this buys time. 
But we will have to stay alert for cheating and continuously 
gauge what is in store when the provisions expire in 10 or 15 
years.
    So far, the U.N. [United Nations] organizations responsible 
for monitoring all of this are not reporting major violations. 
You may have seen reports of an Iran missile test in the last 
several days--technically not a violation under the nuclear 
agreement. And the U.N. resolution on this says it can be a 
violation if there is a nuclear connection to it. So far, that 
is not established.
    Second, it is going to be important to keep track of an 
ongoing revolution in the international energy market. This is 
the one that is a little less obvious. Oil has been a key 
driver of geopolitics for years and has determined the policies 
and, I would say, the very character of many countries, such as 
Saudi Arabia, Venezuela, Russia, to an extent Iran. But a 
combination of fracking here in the United States, 
conservation, battery technology, declining Chinese demand, 
have created an oversupply and pushed crude oil prices 
downward.
    Now, OPEC [Organization of the Petroleum Exporting 
Countries] is trying the old gambit of jacking prices up by 
cutting supply, but I doubt this will work as it once did. And 
this will introduce stresses into societies overly dependent on 
oil revenue.
    The U.S. is insulated from this, because North America is 
heading for self-sufficiency in energy--natural gas--over the 
next couple decades, with the U.S. becoming a net exporter of 
oil. This could tempt us to pull back from engagement in areas 
we have traditionally depended on for oil, but this would be a 
mistake.
    Let me conclude these remarks by returning to the humility 
I expressed at the beginning of this testimony. I would say we 
will probably be surprised in coming months by something 
neither General Petraeus nor I have mentioned. That is almost 
always the case. And it is the best argument for maintaining 
high agility in our military, diplomatic, and intelligence 
agencies.
    So I want to thank you once again for the invitation to 
testify in this committee. It is always a pleasure. And I think 
we are ready to engage with your questions.
    [The prepared statement of Mr. McLaughlin can be found in 
the Appendix on page 68.]
    The Chairman. Well, thank you, sir.
    Thank you both. I think you all have helped us frame our 
work for the year very, very well, and I am grateful for your 
comments and testimony.
    My opinion is we have taken for granted the world America 
made, and we have not helped the American people understand how 
we Americans benefit from the world we have made. And I want to 
ask a little more about that.
    As you all well know, the National Intelligence Council 
publishes an unclassified document every 4 years called 
``Global Trends'' where they summarize a lot of the things that 
we have been talking about. On the first page of the version 
that came out January 2017, it says, ``For better and worse, 
the emerging global landscape is drawing to a close an era of 
American dominance following the cold war. So, too, perhaps, is 
the rules-based international order that emerged after World 
War II.''
    To me, that has a tone of inevitability about it. And that 
is my question. Is it inevitable that our relative power in the 
world is declining, that the world America has made since the 
end of World War II is no longer going to be there, or do we 
have some say in it? Is it inevitable, or does it depend on the 
choices we make, I guess?
    General.
    General Petraeus. Well, first of all, I think that, 
certainly, further evolution is inevitable. China is going to 
continue to grow. Interestingly, in dollar terms, in each of 
the last couple of years, the U.S. has grown more in GDP [gross 
domestic product]. So, again, it is not necessarily that coming 
soon to a theater near us is the point where China, in dollar 
terms--nominal, not purchasing power parity.
    Nonetheless, eventually, a country of 1.3 billion people 
which is rapidly modernizing and has benefited more from the 
existing system than any other country has during that time or 
in history--because no other country has ever in history had 
two decades of double-digit GDP growth less maybe 1 year in 
there.
    So, clearly, there is going to be a relative rise--and, 
relatively speaking, U.S. domination of the world, as we 
enjoyed for a period after the end of the Cold War, the fall of 
the wall, and Desert Storm--our relative dominance is obviously 
going to be diminished.
    The question, I think, is how does this evolve. And that is 
where we have considerable influence. How do we have a 
relationship with China that is based on mutual respect and so 
forth, the foundation of which ultimately is the U.S. economy 
and then our military, diplomatic, and other instruments of 
power? And how do we accommodate, how do we work with China to 
accommodate its understandable desires so that we can help 
shape this world together rather than clash?
    You know, there is a book coming out, in fact, by a 
professor at Harvard, Graham Allison, the dean of the Belfer 
Center, titled ``The Thucydides Trap.'' And it chronicles the 
cases in history where there is a great power and then there is 
a rising power and then, I don't know, 80 percent of the time, 
they clash. Not always, but in many cases they do. And this 
goes back to Thucydides chronicling the Peloponnesian War, 
where you have Sparta and Athens is rising and of course they 
ultimately clash.
    Can we prevent that? Is there the kind of strategic 
relationship that can be established between our two countries 
that can avoid that kind of situation, while still preserving 
those elements of the international structure, the order, the 
norms, and so forth that have stood us in very good stead, have 
helped our allies and partners flourish, despite all of the 
challenges, despite all of the imperfections, and enable the 
rise of China, our number-one trading partner as well as 
arguably our biggest strategic competitor, in a way that, 
again, avoids the kinds of clashes that Graham Allison 
chronicles in this book that is about to come out?
    Mr. McLaughlin. If I can add to that, Mr. Chairman. I don't 
think it is inevitable that we are moving into a time when our 
power will be somehow dramatically diminished.
    We are facing more competitors, but let's think about power 
for a minute. Power, typically, on the nation-state level, 
consists of two big things: the natural things you can't 
affect, like geography and possession of natural resources, but 
then there are the things you can affect, like your culture, 
your expenditure on military matters, your population policies, 
your immigration policies, your demography. Those are things 
you can affect. On all of the things that you can affect, I 
think the United States remains the preeminent power in the 
world.
    Just anecdotally, for example, our culture remains more 
appealing to the rest of the world than any other major nation-
state. Anecdotally, 70 percent of the box office receipts for 
Hollywood movies are overseas, and a fair number of them are in 
Russia and China, for example.
    So I think we are going through another one of those 
periods like, when Sputnik launched in 1957, we thought we were 
losing the space race, but we didn't. When we struggled in 
Vietnam, we thought that our military power was somehow 
neutralized. It wasn't. In the 1980s, when Japan was surging, 
Japan, Inc., was seen as taking over the world. It didn't.
    Today, though, it is a little different. And China is a 
rising power, not a declining one as the Soviet Union was. It 
has many more people than Japan has. It is an innovative 
society. So it is a competitor. We are facing more competition 
than we have had in the past.
    So that is how I see it. You know, we are still the most 
influential country in the world, but the problems we are 
dealing with are almost always problems we can't solve on our 
own, whether it is terrorism, proliferation of weapons, the 
Syria problem, Iran. Almost everything requires--and the 
examples that were given by Mr. Smith, for example, about 
Africa. Almost every problem we are dealing with requires us to 
be in partnership with someone else.
    The other thing I would mention is--and I will stop in a 
second, but we have gone through stages here. The Cold War was 
bipolar. Seventeen years after the Cold War, from 1991 to 2008, 
we didn't have to check with many other people in the world 
about what we wanted to do. China was still rising; Russia was 
in chaos. From 2008 forward, I think there is some declining 
confidence in the world in our model and more competition. 
Russia has its act together now; it did not back then. China is 
a rising power.
    So a competitive world. We are still number one, but we 
have to have the ability to work well with others in order to 
lead. And American leadership, to me, is still, you know, 
preferable to anyone else taking that role. We are the only 
ones who lead with our own interests in mind and the interests 
of others as well.
    So it is not inevitable. It is challenging.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you.
    Just two areas of questioning.
    One, General Petraeus, you mentioned how the Muslims are 
our greatest allies. And I think, you know, one of two things 
that is always troubling to me about the new----
    General Petraeus. In the fight against Islamic extremism.
    Mr. Smith. Yeah.
    General Petraeus. Right.
    Mr. Smith. Yes. And I think the thing that is most 
troubling to me, as I see the new administration take shape--
and I have heard this from some of my conservative friends, not 
in Congress directly, but constituents and others complaining 
about how we are not standing up enough to violent Islamist 
extremism. And, most notably, Mr. Bannon has expressed this 
opinion. And from his seat on the National Security Council and 
from his proximity to the President, his opinion is going to be 
rather important.
    And I hadn't really seen it clearly until I saw a quote 
from him that basically said it is their view that Islam is not 
a religion, it is an authoritarian viewpoint based on 
subjugation, and that that is what--and they sort of lumped all 
Muslims together in that viewpoint.
    And, as you might imagine, I find that rather troubling. 
Because if the U.S. viewpoint is, you know, Islam in and of 
itself is a threat, then we are in for the very clash of 
civilizations that I personally would like to avoid, I would 
think most people would want to avoid.
    You know, you have spoken with President Trump and spoken 
with others. I will also add that I have not seen a similar 
precise quote from our national security adviser, General 
Flynn, but I know he feels similarly, based on some of the 
comments he has made.
    If we are really facing an executive branch that says Islam 
is the enemy, period, not ISIS, not Al Qaeda, not Al Shabaab, 
not the violent extremist groups, but the religion itself, 
isn't that, A, a big problem? And, B, how can we go about 
convincing the folks who are in power not to view it that way?
    General Petraeus. Well, first of all, look, I am not 
necessarily an expert on theology. I have certainly spent a lot 
of time in the Muslim world, and there certainly are various 
sects. And they do range, in some cases, from quite secular, if 
you will, to certainly much more fundamental.
    Islam is not, by definition, I don't think, our enemy. 
Radical or extremist versions of Islam are what we are 
combating and, frankly, what the Islamic world is combating.
    Mr. Smith. Right.
    General Petraeus. Again, this is not actually a clash 
between civilizations as much as it is a clash within a 
civilization. And this is an existential struggle for Muslim 
countries around the world. The biggest target of all for 
Islamic extremism is the Kingdom of Saudi Arabia because that 
is where you have--led by the Keeper of the Two Holy Mosques. 
So, again----
    Mr. Smith. Yeah, but those groups have killed more Muslims 
than anybody else.
    General Petraeus. Yes. The ongoing wars have indeed done 
just that. And, again, that is why I emphasized the importance 
of our Islamic country partners and the importance of Muslims, 
who right now, indeed, are on the front lines.
    And you can ask whether we moved quickly enough, whether we 
were hesitant, or whether we didn't push rapidly enough, and I 
would argue that--you have heard me actually argue that we 
should have taken action sooner in a number of cases. But the 
fact is we have evolved to an approach, a strategy, that in 
Iraq has indeed rolled back the Islamic State and will 
ultimately clear the Islamic State from Mosul, where I spent a 
year, of course, as the commander of the 101st Airborne 
Division, and indeed ultimately clear it from the rest of Iraq.
    The question, then, is, actually: Can the Muslims of that 
country and the other minority groups, can they develop 
governance that is sufficiently inclusive that you avoid the 
creation of fertile fields for the planting of the seeds of 
extremism and ISIS 3.0? And that is indeed the big question 
that is there, because you still have to have all of the 
elements that we had present during the surge in Iraq.
    Although, what is heartening is that the frontline 
fighting, the politics, the reconciliation, the restoration of 
basic services, reconstruction, all the rest of this is being 
done by our partners, as we are enabling them very, very 
impressively with the assets, frankly, that this committee and 
your Senate counterpart and Appropriations Committees enabled 
our military to have. We did not have this armada of unmanned 
aerial vehicles, of all the precision weapons systems, the 
industrial-strength ability to fuse intelligence even less than 
a decade ago. And we do appreciate that very much.
    Mr. Smith. I want to ask a quick question about Russia. But 
I think that is why it is really, really important, I mean, the 
whole controversy over the last few days over the, you know, 
change in our refugee immigrant status. I mean, you can drill 
down into the weeds of it and say, well, why shouldn't we be 
more careful about who we let into the country, and that is 
fine. But what I hope people understand is the language around 
it, you know, the portion of it that said, well, we will give 
preference to Christians over Muslims, the degree to which it 
was called a, quote, ``Muslim ban,'' which did come out of some 
people's mouths, the way we do that is deeply damaging to our 
effort to rely on those allies in the Muslim world that we need 
to defeat this extremism.
    On Russia, I want to get your viewpoint, both of your 
viewpoints, on just one quick thing. And I think you described 
very well, you know, the way the Russians do things, Mr. 
McLaughlin. I think that is what they are doing in Syria right 
now, is, you know, they are negotiating, and then they are 
breaking the negotiations, gaining ground.
    And I think anyone who thinks that, you know, well, Russia 
is just--you know, they view Assad as a problem, as well, and 
eventually they are going to need to have him move on because 
Assad is not going to need them--no, I think the Russians have 
made a friend for life in Bashar Assad in basically saving his 
bacon, and that this is the Russian viewpoint, that Putin is 
basically starting--I don't know if you can call it a new Cold 
War, but it is based more on fascism than communism. But he is 
basically trying to undermine liberal democracies anyplace he 
can and, at the same time, prop up authoritarian dictatorships.
    And there are a bunch of reasons for it. I think, one, he 
honestly believes that is the best way to run a country. Two, 
obviously, that is the way he is running Russia, and he does 
not want the people of Russia to start thinking that liberal 
democracy is a good idea.
    But I see this--and, you know, I am not one for conspiracy 
theories or, you know, grand paranoia, but I see Putin as 
having a very clear plan to push fascist authoritarian 
governments wherever he can and to undermine liberal 
democracies, like ours or Ukraine, wherever.
    Am I overstating the case? Is there more room to work with 
Russia on this? Or is he really that scheming about how he is 
trying to reshape the world?
    Mr. McLaughlin. I don't think you are overstating the case 
by much, if at all. We don't know whether he is a strategic 
genius or a tactician who exploits things smartly and luckily. 
We don't know that. But with our own eyes we can see what he is 
doing.
    I think there are a lot of things involved here. I came 
away from my time in Russia about 6 weeks ago, where I met with 
people from the Kremlin and the foreign ministry, with a couple 
of impressions that relate to the question you asked.
    If you look at the first period of Putin's rule, from 
roughly 1999 through roughly 2008 or so, he was lucky in that 
time because oil prices were real high, and the Russian economy 
is fundamentally based on exporting natural resources.
    Oil prices have been diving, he has been under sanctions, 
and he has now shifted his emphasis, to maintain the support of 
the Russian people, to external adventures, which are quite 
popular in Russia. Let me emphasize that. His popularity is 
high. Russians believe what he says. He has total control of 
the media. The media is, I would say, sycophantic with regard 
to Putin, with one or two tiny exceptions.
    So, I mean, the irony here is that he needs us as an enemy 
in order to maintain his popularity. And it is working for him.
    Now, on your broader point about what he is trying to 
achieve, yeah, I think he has two or three major aims here. 
First is to consolidate and keep his control and power in 
Russia, and he is doing that quite effectively. Two, it is to 
ensure Russia's freedom of action in the neighboring sphere 
around him.
    When you talk to someone from the Kremlin and you say, 
``Why are you harassing NATO members like the Baltics?'', their 
perspective, their narrative is, ``Why did you put NATO on our 
border?'' So they have a narrative here that is deeply felt. 
And we disagree, but I am just making the point that that is 
how they think.
    Mr. Smith. Thank you. I am sorry. We will have to leave it 
at that. I have taken more time than I should. I will let other 
members get questions in.
    Thank you. I yield back.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Thank you, General and Director, for being here today.
    And, General Petraeus, I want to particularly thank you for 
being an inspiration for young professionals to serve. It was 
really heartwarming a moment ago to see Captain Seth Moulton 
and you greet each other. And you certainly have contributed to 
him being an effective Member of Congress. Thank you.
    Additionally, it is personal. I have had three sons----
    General Petraeus. A couple of others in the audience now 
too--or in the seats now as a result of the latest election.
    Mr. Wilson. And, General, they are multiplying. This is 
good. And it is personal. I have had three sons serve in Iraq, 
in Afghanistan--field artillery, Navy doctor, Corps of 
Engineers. And, again, it has just been so meaningful for their 
service, and thank you very much.
    With your background, obviously, with Iraq, a country that 
we hoped would be stable and prosperous for the people of Iraq, 
they are still in crisis. Can you describe where they are 
today? What can we do for the future?
    General Petraeus. Well, first of all, I think what has 
evolved has been a very impressive strategy that, by my 
definition, it is sustainable. And, again, that is hugely 
important, because this is a generational struggle. The blood 
and treasure that we are committing there is, again, not the 
kind of vast amount that we had to do to retrieve the country 
from the brink of a civil war, say, during the surge.
    The issue really is the battle after the battle. That is 
the issue in Nineveh province, where you visited when we were 
up in Mosul, and the most complex human terrain in all of Iraq. 
And, again, the test is going to be can governance there be 
sufficiently representative of all the people, sufficiently 
responsive to them within the means available, and, above all, 
guarantee minority rights as well as majority rule.
    And then the same test will acutely have to be answered in 
Baghdad. And there is an enormous challenge there. The Prime 
Minister, Haider al-Abadi, is someone who knows that the 
country has to have inclusive governance. He has reached out; 
he knows that there has to be reconciliation, remembering that 
the biggest achievement during the surge in Iraq was not 
necessarily driving down the level of violence, it was actually 
bringing the Sunni Arabs back into the fabric of society, which 
actually did then help bring that level of violence down so 
considerably.
    He is challenged, however. There are Iranian-controlled 
Shia militia, three of them that are among the most effective 
fighting forces in the country. The former Prime Minister, 
Nouri al-Maliki, who pursued the ruinous sectarian policies 
that undid what we did during the surge some 3\1/2\ years after 
its end, is out there trying to get his old job back. And it is 
a very, very fractious situation.
    So our effort there now has to be to help him in any way 
that we can, without being so overt, without being--he cannot 
ever appear to be, obviously, an American puppet. And yet we 
have to provide the assistance that we can to him, to his 
coalition, and to others who feel the same way that he does, 
knowing what we do about the country: that, again, if you 
cannot get that fabric of society back together, then you are 
not going to be able to resolve the differences that have led 
to this kind of situation.
    There is one unique factor in Iraq that does help the 
country enormously, a country with a tremendous number of 
centrifugal forces pulling it apart: It has a centripetal 
force, which is the central government's distribution of the 
oil revenue. And that does bring the people back to the center, 
and it is what will sustain the Sunni Arabs, whose areas no 
longer have any major energy production in them as a result of 
changes of control of the northern oil fields and the fact that 
the big oil has always been in the south, the Shia-controlled 
south.
    Mr. Wilson. I appreciate in your testimony you addressing 
the issue of sequestration. The American people need to know 
about this. Just the word is confusing. But it affects 
readiness and puts our troops at risk.
    Can you give specific examples of what the American people 
need to know, why we need to address sequestration right away?
    General Petraeus. Well, I think it is the worst damage to 
readiness that can possibly be imagined: the way it is 
implemented, the lack of ability to plan for it, particularly 
that first time. I was talking with the chairman before this 
hearing. Services are still working their way out of the 
challenges that were created during that time, where there were 
very limited ways to take the kinds of substantial cuts that 
were levied other than laying off civilian workers, others.
    And readiness took a major hit, I think the single biggest 
cause of those pockets of readiness challenge that still exist 
out there and still need to be dealt with.
    Mr. Wilson. Thank you.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you to both of you for being here and providing us 
with that sweeping study of the international order.
    General Petraeus, I wonder if you could just take us back 
in many ways to your role of commanding in Iraq, in the theater 
there, and if a travel ban had occurred during your time, how 
do you see that affecting? And, today, as we continue to really 
have relations with many of our interpreters there, how is that 
being interpreted? What do you think the long-range effects for 
that could be?
    General Petraeus. Well, the long-range effects I think will 
be determined by how quickly now whatever changes that are 
identified can be implemented and we can get back to, if you 
will, a routine conduct of business.
    There are numerous individuals who, of course, put their 
lives at risk and those of their families as well. A number of 
them have been in various pipelines, have waited for years to 
get the opportunity to leave the country, where they are at 
risk because of their service alongside us. And so, clearly, 
allowing that process to resume with whatever additional 
safeguards I think will be very helpful.
    I have been very heartened by Secretary Mattis, Secretary 
Kelly, others, who have come out and identified where there 
need to be exceptions and exemptions and so forth. But, I mean, 
the paradox is that we have General Kenani, a four-star general 
with whom I worked very closely in a number of different 
positions in Iraq. He is the head of the Iraqi Counter 
Terrorism Service, the most professional and most reliable and 
finest fighting force that is in Iraq. It has borne the brunt 
of much of this fighting throughout the time of the battle 
against ISIS. And he is prevented from coming here to 
coordinate with Central Command and others and, indeed, his 
family, which is here because of the risk that he has incurred 
there.
    So, again, I think just the sooner that we can figure out 
what additional steps need to be added to the process to ensure 
that we double- and triple-check to ensure that individuals 
coming to our country won't become engaged in terrorist acts.
    Mrs. Davis. Mr. McLaughlin, would you agree? Does this give 
Islamic extremists ammunition?
    Mr. McLaughlin. Almost everything we do gives the Islamic 
extremists ammunition. They can take almost anything, any 
American policy, and turn it into propaganda. And they will do 
that with this.
    Mrs. Davis. If I could just turn to Russia for a moment as 
well and thinking in terms of our NATO interests. And I know 
that, General Petraeus, you mentioned how, obviously, President 
Putin watches the political will of the major democratic powers 
to defend Euro-Atlantic institutions like NATO. We certainly 
are quite aware of the influence campaign that we just 
experienced from Russia.
    How do you see that going forward, in our ability to 
continue sanctions, with our partners, as well as dealing with 
cybersecurity issues? Should we be cooperating on that, in that 
area? How would you move forward? What advice would you give 
President Trump on that?
    Mr. McLaughlin. Well, I would say we have to really first 
figure out what are our interests, be as clear in our minds on 
that as we can be, before we go into any kind of negotiation 
with the Russians because they will be very clear about what 
they want. So we have to know what we want. And we have to 
understand where the trade space might be, if there is any.
    And we have to be very clear that we will not put up with 
aggression against NATO. NATO has done its most impressive 
forward deployment--it is in the process of doing it now--
sending four battalions forward, three in the Baltics and one 
in Poland. The one in Poland is led by Americans. And we have 
to be firm on that score.
    We have to guard against the Russians creating situations 
of ambiguity, such as they did when they went into Crimea with 
their little green men. And now we are very aware of that. This 
is what makes strategy with the Russians, against the Russians 
so difficult. They use this array--General Petraeus referred to 
hybrid warfare. What that translates to in the Russian sense is 
a mixture of conventional forces, special forces, information 
operations, cyber operations, propaganda, and, to put a bald 
face on it, lying. And we are not used to that. We are sort of 
straightforward, this-is-it, put our cards on the table. So we 
have to kind of become more subtle in the way we deal with 
them.
    The Latvians when I was there said something very 
impressive, I thought. They are on the front line. They have 
about 25 percent of their population ethnic Russians.
    Those people are bombarded with propaganda from Russian TV 
stations and so forth. They said: Our objective is to make sure 
we do not allow them to create a situation of ambiguity here; 
that is, they come in, they do something like take over a TV 
station, and claim it is not Russians. Latvians said: If they 
are Russians, we are going to take action right away. We can't 
wait. And that will lead to an Article 5 in NATO if that ever 
happens. And NATO will then have to be stepping up to that. And 
that will be a very difficult moment for us. So I think this is 
very dicey.
    General Petraeus. May I just underscore something that John 
mentioned I think is hugely important? And that is being firm 
with respect to the Russians.
    He highlighted that also in his opening statement. But when 
we are not, they are going to push further. And the same is 
true of some of the other, if you will, revisionist powers that 
are out there.
    I have been heartened to see the deployments of armored 
forces in recent weeks to Europe, to the Baltic States, and to 
eastern Poland; heartened by the calls by Secretary Mattis to 
his NATO counterparts reiterating the inviolability of the 
Article 5 commitment that we have made.
    But there have been times where we have not been as 
supportive. This committee and the Senate counterpart 
authorized and appropriated by the Appropriations Committee, 
shoulder-launched anti-tank guided missiles. These cannot be 
interpreted as offensive weapons. You are not going to run to 
Moscow with these on your shoulder. And yet we did not deliver 
those to the Ukrainian forces that are battling the Russian-
supported separatists.
    So, again, we have got to be very careful how we do this. 
Firmness shouldn't get into provocation. Again, finding that 
equilibrium, having strategic dialogue, understanding the 
interests of each side. But at the end of the day, there has to 
be a degree of firmness there, or, again, they will push 
further and further and further until eventually they feel 
that.
    Mr. McLaughlin. Can I add one very brief point? When I was 
in Ukraine, a Ukrainian Member of Parliament, the head of 
their, I think foreign affairs committee, said something that 
really stuck in my head. She said: Ukraine is the only former 
member of the Soviet Union that can change Russia. That is why 
Putin is so worried about it.
    They think of Ukraine as, first, the origin of the Slavic 
nation. They think of them as their kind of little brothers. 
And if Ukraine actually achieves pluralism, democracy, 
independence, prosperity, it is a threat to the system that 
Putin has constructed in Russia. So that tells us that maybe 
our greatest way to combat Russia is to help Ukraine, which 
hasn't helped itself all that much in recent years. But I would 
say there are positive trends underway in Ukraine. The 
committee might actually have someone come and take a deep dive 
into Ukraine for you because they are doing some good things 
now, and they are becoming a smart political nation.
    Mrs. Davis. Thank you. And I might add, Mr. Chairman, that 
the Democracy Partnership has been working with Ukraine for a 
number of years. And so thank you very much.
    The Chairman. Important discussion. I know some members are 
going there before too long.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. Thank you for this 
important hearing on the world's threats and challenges.
    Thank you, gentlemen, for your contribution.
    And, General Petraeus, good to see you again. I appreciate 
your opening with the statement on Churchill of looking back 
can allow us to see forward. So, with that theme, I am going to 
take you back to the nineties and to the Balkans. Thank you for 
your service as part of the NATO stabilization force in Bosnia. 
I served as the mayor of Dayton during the negotiation of the 
Dayton Peace Accords and traveled to Bosnia twice in 1996, once 
with Commerce Secretary Mickey Kantor on the follow-on to the 
tragic Ron Brown crash. And my community took part in helping 
build democratic institutions with exchanges with hospitals, 
government institutions, and schools.
    The Dayton Peace Accords, as you know, were intended to be 
a transition to peace. It was a great accomplishment by our 
country where we ended the war and the disintegration of 
Yugoslavia. It is an area that has been largely neglected, 
though, since the Dayton Peace Accords. It has been left with 
an unworkable constitution. The Republika Srpska continues to 
talk about seeking independence, which, of course, has the 
potential of resulting in conflict in the area.
    The Prime Minister of Serbia continues to openly state that 
he is concerned that conflict could result. General Hodges, as 
he looks through the area, also identifies it as an area of 
concern. Yesterday, I met with the president of the American 
University in Bosnia and Herzegovina, Denis Prcic.
    General Petraeus. So did I.
    Mr. Turner. That is what my transition was. He related to 
me that he had met with you. As you know, his view is very 
pessimistic, although his organization has been part of the 
transition to a future for Bosnia. This is an area that I do 
believe could result in conflict once again in the heart of 
Europe and is just an absolute result of our neglect in 
leadership.
    So, with that, General, with your expertise and having 
served in the area, I would love your thoughts on, as we look 
forward, what does America need to do to ensure that conflict 
does not result in the Balkans?
    General Petraeus. Well, we need to stay with it, frankly, 
not with vast sums of money, but, frankly, with very, very 
assiduous counsel and constant pressure, if you will, which is 
what is needed. I have actually been back there a number of 
occasions. The financial firm in which I am privileged to be a 
partner did the biggest private equity deal in the history of 
the Balkans, which is not a long history and not very big, but 
$1.5 billion in telecommunications in overall all the Balkans. 
And I go to Bosnia two to three times a year to try to help 
advance that particular effort.
    The issue is, once again, about governance, as it often is 
in countries like this. And it is the layering of governance. 
It is the corruption that eats at the system. It is the 
inability to push through the partisanship that there is 
embedded in ethnic and sectarian differences and political 
parties that then get into the economy and so forth and so on.
    The declaration of the desire to join the EU is probably 
the most hopeful sign I think that has taken place there in a 
number of years. And, again, helping them to get down that 
road, to meet the different requirements is hugely important. 
If they can do that, by the way, if Serbia can do the same 
thing, some of the other countries, this will be very, very 
helpful to them and to their citizens. Failing that, they are 
going to stay mired in this kind of internecine political 
conflict that could actually result, once again, perhaps into 
something more kinetic. And that is very worrisome, as you 
know, to the Republika Srpska in that regard in particular.
    Mr. Turner. General, I appreciate your saying that because 
I think, whenever we have an item on our agenda that is being 
neglected, it can be elevated by people understanding the 
risks. And I truly believe, as you have stated, the risk in the 
Balkans is not just inefficient government and continued 
division, but it is the prospects of conflict in Europe. And I 
appreciate your certainly involvement in the area to help on 
the economic side and your advocacy to help the United States 
identify this as a priority.
    General Petraeus. As I have said to them, I felt privileged 
to serve there for a year when Bosnia needed soldiers, and I am 
privileged to be back there now when they need investors.
    Mr. Turner. Thank you.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    And thank you, gentlemen. General, it is good to see you.
    General Petraeus. Great to see you.
    Ms. Bordallo. As a Congresswoman from Guam, we are acutely 
aware of the state of Asia-Pacific and the threats that our 
island and our country face in this region. And I am concerned 
that the President's rhetoric and actions weaken our alliances, 
undermining American leadership while creating a power vacuum 
in the region that China and Russia appear eager to fill.
    Just last week, we heard from the Prime Minister of 
Australia that China may be welcomed into the TPP [Trans-
Pacific Partnership] trade agreement, which no longer includes 
the United States. In a world where American leadership has 
been challenged, you both know the value of building 
coalitions.
    And, General Petraeus, I agree with your assessment that 
China is seeking a broader sphere of influence.
    So, to you both, do you believe actions such as rejecting 
negotiated trade agreements or antagonizing long-term treaty 
allies in Japan and South Korea serve to deepen our 
relationship in the region? Does this demonstrate positive 
American leadership? And in your assessments, do you see our 
allies shifting away from or toward China?
    General.
    General Petraeus. Thanks very much for that. First of all, 
let me just note that I am heartened to see Secretary Mattis 
traveling so quickly to Japan and to the Republic of Korea and 
reassuring them, again, his phone calls, once again, with his 
counterparts. It is interesting, because I just met with two 
very senior Australian officials, and we discussed these kinds 
of issues.
    And I think it is important in the wake of the TPP being 
shelved to immediately launch initiatives for bilateral 
economic treaties. I think that is hugely important. There is a 
degree of uncertainty out there. There is a degree of waiting. 
In the past, individuals in Singapore, for example, have 
publicly said that, you know, if we don't get TPP, you are 
finished in the Pacific, this kind of thing. And I think we 
have to show that that is wrong now at this point in time.
    But China will be very happy to move out. They already have 
an alternative economic council, if you will, that they are 
constructing. They have the One Belt and One Road strategy. We 
have to keep all of that in mind, and indeed, we have to 
strengthen the ties that we have, very, very important allies 
there, alliances there, and economic partners, who share our 
values and our beliefs in the freedoms that we hold so dear.
    Ms. Bordallo. Thank you.
    Now, for you, Mr. McLaughlin, and General Petraeus just 
mentioned it, the Secretary is heading to Japan and South 
Korea. What is unclear, will Secretary Mattis be bringing a 
message of reassurance and commitment to our historical 
agreements, or will he have White House talking points that 
retreat from our treaty obligations, for example, Article 5 of 
the U.S.-Japan Security Treaty?
    Mr. McLaughlin. Well, I literally don't know what he has 
got in his briefcase, but I am confident that he will not be 
stepping back from those agreements.
    At the same time, I would say, leaving politics aside, that 
just, objectively, what my eyes tell me, what Asian contacts 
tell me, is concern about having stepped back from TPP. Asian 
nations have invested a great deal of their political capital 
in getting to this point in the negotiations on that, and there 
is palpable fear from our closest allies that they will be 
swept into China's economic orbit if the United States is not 
deeply engaged.
    So, that said, I would share General Petraeus' confidence 
and reassurance that at least we are stepping out--I am sure 
General Mattis is doing this--stepping out to emphasize the 
bilateral commitments remain, the treaty commitments remain. 
And we are going to have to get--if we stay out of TPP--and it 
is hard for me to see how we walk that back now. But if we stay 
out, getting actively engaged in the economics of the region 
through bilateral agreements, which will be hard to construct, 
by the way, is essential.
    Here is the point I would make about China, a broad point: 
I could run through all of the things they are doing, and 
General Petraeus just mentioned them. The stark fact is that 
the initiatives they are putting forward have a more 
transformational potential than practically anything the United 
States has proposed in Asia in recent years--transformational. 
So what we need here is either deep engagement or a really big 
idea.
    Now, the pivot toward Asia was a great idea, but it didn't 
take material form. We were to get 60 percent of our naval 
assets into the Asia-Pacific region. I don't know where we 
stand on that. But we need to move ahead with--that is our 
future, Asia, so we need to be really careful how we do it.
    Ms. Bordallo. Thank you, gentlemen.
    And I yield back, Mr. Chairman.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service to our country.
    General Petraeus, it was good to see you in Afghanistan. 
And in 2011, several of us here came and visited with you and 
saw the operations on the ground. I want to commend you for 
your leadership there that enabled our training bases to be 
taken out and the pushback on the Taliban to give the people of 
Afghanistan an opportunity for freedom.
    But as we are moving forward there, I would like your 
insights into what you think we need to be doing. We had in our 
Oversight and Investigation Subcommittee some hearings looking 
at force management levels. What we found is that those levels 
were causing a split in some of the brigades, with the 
maintenance people being left home and contractors backfilling, 
et cetera.
    So the sense that I have gotten is that there hasn't been a 
clear mission there. And I have been concerned about the 
resurgence of the Taliban as well as Al Qaeda and other 
terrorist groups, ISIL, coming in there, filling up the void as 
we have pulled back.
    So what would you advise, from your vast expertise there? 
What should be our mission? What should be the force management 
levels there moving forward?
    General Petraeus. First of all, it was great to see you, 
and thanks for visiting us with the other Members.
    In two words, what we need to provide is a sustained 
commitment. Now, let me explain. The mission I think is 
actually still very clear. It is to prevent Afghanistan forever 
once again becoming a sanctuary for transnational extremists, 
the way it was when Al Qaeda had the bases there under the 
Taliban rule in which the 9/11 attacks were planned and where 
the initial training of the attackers was conducted.
    The only way that you can accomplish that mission without 
us doing it ourselves is obviously to enable the Afghans to 
over time secure themselves and govern themselves to a good 
enough fashion. We are not trying to turn Afghanistan into 
Switzerland in 10 years or less or something like that. 
``Afghan good enough'' was often the phrase. We sometimes 
exceeded that, but I think we have learned that that is the 
approach.
    Now, I share your concerns about troop caps. I have all 
along. I share your concern about time-phased force drawdowns. 
I think that, in fact, there should be, and I believe there is, 
a reexamination of these caps, of the effects that they have on 
units. As you know, if a commander is given only a certain 
number of forces, he is going to fill that number with those 
who can do what only those in uniform can do, which is to go 
outside the wire and help partners engage with the population 
and occasionally, in this case, engage with the enemy because 
we are now much more enablers than we are frontline fighters.
    And that means that you are going to leave behind all those 
that, you know, don't do that, but do the important maintenance 
and other logistical tasks that are so critical to sustainment 
of forces. And then you contract that out, which costs a vast 
sum of money. And, of course, you have left part of your unit 
behind, so you now have a readiness issue on your hands as 
well.
    So I think reexamining that kind of issue without getting 
the numbers going wild, because, again, sustainability of our 
strategy is crucial, blood and treasure, because this is going 
to be a long effort. Also, again, the sustained commitment that 
I envision reassures the Afghans. Still put the pressure on 
them to make the changes, to get this pernicious corruption out 
of some of the really critical areas in which they are causing 
such problems and then also to have rules of engagement that 
allow our forces to support our Afghan partners, who are 
fighting and dying for their country in a mission that is 
important for us to be there. But when we pulled our forces 
back from the front lines, we also pulled our air cover. Now we 
have relaxed some of that. General Nicholson has been given a 
degree of greater freedom. I think there is probably still more 
of that that needs to be done. And keeping in mind that it was 
under the Taliban that Al Qaeda had those bases where the 9/11 
attacks were planned.
    Mrs. Hartzler. Absolutely. I want to switch gears quickly--
I only have 40 seconds left--but to Iraq, with your experience 
there, what is the role that you see in Iran there doing a lot 
of the fighting, the training, and what is it going to look 
like afterwards? You talked about a coalition. I mean, that is 
a tough sell.
    General Petraeus. It is very difficult. On the one hand, 
Iraq does not want to be the 51st state of Iran. On the other 
hand, Iran is always going to be their neighbor to the east. It 
is always going to be much bigger. It is always going to have a 
certain degree of shared interest. And Iran, frankly, would 
love to Lebanonize Iraq, using these three Shia militia, Asa'ib 
Ahl al-Haq, Kata'ib Hezbollah, and the Badr Corps, which they 
support and the Quds Force commander does selfies with on the 
front lines. I mean, he went from being an invisible figure to 
very visible on social media.
    So that is the context in which this is going to play out. 
And we have to help those Iraqis who--which is the bulk of the 
country--do not want to be dominated by Iran, do not want to 
become Lebanonized, and want to be able to determine their own 
future, free of undue influence in that regard.
    Mrs. Hartzler. Thank you.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to both witnesses for your thoughtful 
testimony today.
    And I just want to go back again to Asia-Pacific. Mr. 
McLaughlin, you raised the question about whether or not the 
sort of pivot militarily and Navy-wise is actually taking 
place. I mean, it actually has. Twelve of us last July visited 
RIMPAC [Rim of the Pacific Exercise] and actually got a really 
good view of American leadership still in that region of the 
world, 26 navies deploying collaboratively. And Admiral Harris, 
you know, was the quarterback that was running those 
operations.
    Obviously, at that point, TPP was sort of a big question 
mark and a big topic, but the other was that, in July, the 
Permanent Court of Arbitration ruled against China in terms of 
the South China Sea claim by the Philippines. And the 
frustration that Admiral Harris as well as other combatant 
commanders in other parts of the world have expressed is that 
our nonparticipation in the U.N. Law of the Sea treaty really 
does undercut our ability to tout what really was, I think, you 
know, the perfect sort of rules-based international order, you 
know, system response to the historic rights claim that China I 
think has, you know, really outrageously asserted in that part 
of the world and threatens international order as far as it 
pertains to international commerce; $5 trillion of goods flow 
through the South China Sea, and the whole world depends on it.
    So I was wondering if you would comment, in terms of 
whether you think we should get off the bench and become part 
of the process of the international Law of the Sea treaty. And 
I would ask that to both witnesses.
    Mr. McLaughlin. Yes, I do think we should do that. I don't 
know why we haven't. There probably is some argument against it 
that makes sense in some quarters. But we observe the Law of 
the Sea; we just haven't ratified it. And I think it does get 
us on a lower high ground, not on a high ground when we have 
these disputes.
    Nonetheless, it is undeniable that what China has done in 
the South China Sea is indefensible in terms of traditional 
maritime law. You know, you are entitled to a certain amount of 
territory off of your coast, 12 miles, as I recall. And what 
they have done by building these islands is enabled themselves 
to claim 90 percent of the South China Sea.
    The larger issue here is the one you put your finger on, 
that both General Petraeus and I referred to in our testimony, 
and that is erosion of rules that typically have governed the 
global order. And in this case, it is the freedom of the seas. 
We have challenged that, as you know, with our forces, and that 
is a good thing.
    It is also interesting that the Russians have done a joint 
exercise with the Chinese in the South China Sea. So there is a 
lot of competition in that part of the world for who is going 
to be the dominant power. And if we don't defend that, we will 
pay in the long run, because 50 percent of the world's cargo, 
container cargo, goes through that channel.
    China reacted badly, as you know, to the decision of the 
international court. Fortunately, they have not done anything 
aggressive in response to that of note, but I think it is one 
of those ongoing nagging problems in Asia that we have to keep 
a constant eye on, both militarily and politically and 
diplomatically, and make sure that we don't turn our attention 
away from it.
    General Petraeus. I agree that we ought to ratify the U.N. 
Convention on the Law of the Sea, and I would expand a bit on 
what John was talking about where the rebalance to Asia, the 
pivot I think had a lot of good conceptual value.
    I think we should remember from that that what was 
unhelpful at times was rhetoric that was very ringing about our 
rights and freedom of navigation and so forth, say, the 
Secretary of Defense Ash Carter at the Shangri-La Dialogue in 
Singapore. And then we would wait 6 to 8 months before we 
actually put a ship through the South China Sea. And perhaps 
instead of the ringing rhetoric, just take ringing actions. 
Again, it is time for a little of the, you know, ``speak softly 
and carry a big stick.''
    Mr. Courtney. Great. Thank you. Really quickly, General, I 
was with you in 2007, Memorial Day. We lost 10 of our personnel 
that day. It was a really rough time. And, you know, you 
mentioned the sort of balancing act, in terms of the Prime 
Minister not being perceived as an American puppet. The Iraqi 
Parliament voted 2 days ago to suspend visas from U.S. citizens 
into Iraq. He has publicly stated he won't enforce it.
    General Petraeus. That is right.
    Mr. Courtney. But I mean, that puts him in almost the worst 
possible circumstance, in terms of trying to hold together the 
alliance, but being, you know, politically internally viewed as 
just simply a defender of the U.S.
    General Petraeus. We had a sign on the operations center in 
every headquarters that I was privileged to command. And we 
always had a sign that asked: Will this operation or policy 
take more bad guys off the street than it creates by its 
conduct or implementation? I think it is always a good question 
to ask.
    Mr. Courtney. Thank you.
    The Chairman. Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman.
    General Petraeus, thank you for your noble service to the 
country and to just, again, the cause of human freedom.
    General, you mentioned earlier that it was important to 
confront ISIS and just radical Islam in general on the 
strategic level so that we were dealing with some of the 
ideology that foments it. And do you think our current 
countermessaging against the ideology of radical political 
Islam is adequate at this point? What suggestions would you 
make?
    General Petraeus. I don't think it is adequate. I think it 
is very, very challenging. I freely acknowledge that we are 
making a lot more efforts, indeed, in that area. We tried this 
when I was the commander of Central Command, so I have a lot of 
firsthand experience with how difficult it is.
    I think, at the end of the day, if there can be a solution, 
as close as we can get to a solution is going to come from much 
greater partnerships with the internet service providers and 
those who oversee the social media platforms that are so 
important in enabling Islamic extremists to communicate, to 
proselytize, to share tactics, techniques and procedures, to 
issue orders and so forth.
    There is, with machine learning, with artificial 
intelligence, much, much more opportunity now than in the past, 
and yet these IT [information technology] firms have been able 
to shut down a fair amount, for example, of child pornography. 
Again, there is recognition software, there are apps and all 
the rest of this that can be used to identify. And, again, with 
the advent of machine learning--and I am actually engaged in 
some of this in the private sector in a variety of different 
fields--there are much greater opportunities.
    I have discussed this with Eric Schmidt of Google, with 
also Jared Cohen of what used to be called Google Ideas. I 
think it is now Jigsaw or something. And, in fact, we are 
meeting to discuss this further in a few weeks in New York, 
where they have their big setup for it. There is progress in 
this area, and that I think actually is going to be far more 
important than what will prove to be--you know, we will be 
whistling into the wind in our efforts if you are doing it just 
with individuals, even if you can amplify that, magnify that 
many different times.
    So I think, again, the solution will be with the internet 
service providers, social media platform firms, and their help 
to this and their commitment that they should not allow this 
on, again, Facebook, Twitter, Instagram, whatever other means 
are being used.
    Mr. Franks. Well, certainly, I just want you to know a lot 
of us strongly agree with you on that front. We think it is 
extremely important, as important as it is to tactically deal 
with ISIS, as we have had in some cases when we are serious 
about it unprecedented success, but we still have to prevail.
    And I guess the second question followup is that, as we 
actually squeeze ISIS on the battlefield, there are some 
concerns that I think are probably justified, that we will 
create sort of a terrorist diaspora, for a lack of a better 
term, and that it may increase small-scale terror attacks in 
Europe and the U.S. And what would you suggest that we do to 
try to prevent that?
    General Petraeus. Let me just start with that, and then I 
will hand off to John, who has been engaged with the European 
services continuously.
    Look, first of all, we can't play whack-a-mole. So you have 
got to whack all the moles wherever they are. It takes a 
network to destroy a network. We have that capacity to do that. 
And we need to intensify that particular effort. We have to go 
after them wherever they are.
    We do have to recognize that, as they are defeated in Iraq 
and Syria, again, if they are not killed and if they don't just 
sort of melt into the population in those areas, retire from a 
life of extremism, they may well go home. And they will go home 
to European services that, in some cases, as John mentioned 
earlier, are already stretched.
    So let me hand off to you there.
    Mr. McLaughlin. Yes. The problem, one of the problems--
first off, your broad point is absolutely correct, that the 
likelihood is that they will spread. This will not be like 
dealing with Al Qaeda. When we cornered Al Qaeda and basically 
smashed the 9/11-era leadership, there weren't too many of them 
left, and they didn't have too many places to go. This group is 
very different. It has pretty well-developed nodes in five or 
six countries overseas. I would point to the Sinai and Egypt as 
a particularly developed node. They have been damaged in Libya, 
but they have scattered in Libya. Libya is a highly ungoverned 
area, so there are a lot of places to hide there, although we 
have had some success in the last week.
    In Europe, the problem that I see is the lack of sharing 
and coordination among all of these services. It took us years 
to figure out how to do that in the United States. We did it 
reasonably well before 9/11, much better after 9/11. It took us 
years to learn how to share classified, sensitive information.
    The Europeans haven't figured that out yet, as best I can 
determine. So we have to work with them to make sure that they 
do that, because that is the launching pad for attacks here. If 
we have terrorists in Europe with passports that don't require 
the same sort of attention to visas, they can come here. And, 
of course, they can come here anyway if we are not very careful 
with our visa policy.
    So I think I would leave it there other than to say the 
classic formula for defeating terrorism to me has always had 
three parts: destroy the leadership; deny it safe haven; change 
the conditions that give rise to the phenomenon. We are pretty 
good at destroying the leadership. They have more ungoverned 
space than they used to have in the world, Arab Spring and all 
of that. And, third, we are far from changing the conditions 
that permit this thing to metastasize and grow.
    Mr. Franks. Thank you both very much.
    And thank you, Mr. Chairman.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you both for being here. We certainly 
appreciate your wide-ranging testimony over the many challenges 
we face across the globe and as it is informed by your great 
experience, and we are certainly the beneficiaries of that.
    And in the course of your service, you have both served in 
positions that have depended, to a great extent, about 
partnerships with our allies around the world in the pursuit of 
mutual goals. And both of you today have referenced a need to 
maintain these global alliances in the face of diffuse threats, 
that we can't do it alone.
    So, with that in mind, to achieve U.S. goals, General 
Petraeus, you spent many years working with our Iraqi partners 
to defeat extremist groups seeking to plunge that country into 
chaos. And to that end, today, American forces are working 
alongside the Iraqi military to build their capacity to defeat 
ISIL. And as you say in your testimony, this approach that 
enables our local partners has allowed us to achieve a 
sustainable strategy in our fight against ISIL.
    So I would like to go back to the President's executive 
order that included the ban on the entry of all Iraqis for 90 
days, including, as it was first implemented, although now it 
has been corrected, those who have directly aided our mission 
in that country.
    But how might that order confound our two countries' mutual 
goals in Iraq and the region? And I am going beyond the 
individual impact, the general who couldn't come here, the 
translator who served us so well barred from entry. My question 
really is, does it undermine the element of trust that must be 
key to successfully working together?
    And on the ground, I do have a concern about our American 
soldier who is working side by side with an Iraqi counterpart. 
What does that soldier say to that Iraqi counterpart who 
wonders why, despite the fact that we are trying to work 
together, that our newly elected President has enacted this 
ban?
    General Petraeus. Well, clearly, again, the message has to 
be one that is going to reinforce and build these partnerships. 
And I should also point out, of course, we are not just working 
with the Iraqis alone. We are working with what I think is now 
the largest coalition in history. I think the Afghan coalition 
was the largest, but I think this has actually surpassed it in 
fighting against the Islamic State.
    Churchill was very right on this as on so many issues when 
he said that the only thing worse than fighting with allies is 
fighting without them. So we need them. And, as I mentioned, we 
especially need Muslim allies. Our Muslim country partners are 
the ones who are on the front lines. And it is, again, a 
struggle within their civilization even more than it is between 
our civilizations. And we don't want to heighten the 
differences between those civilizations.
    Beyond that, I feel that we have a moral obligation to 
those who put their lives on the line and put their families at 
risk to serve alongside us in places like Iraq and Afghanistan. 
In fact, on Friday, I am doing an event at the American 
Enterprise Institute that is titled ``Lost in Translation.'' 
And it is about these individuals that have been left behind 
and have had such a very difficult time to get here. Again, how 
we treat them will influence the willingness of others to put 
their lives on the line and put their families at risk to serve 
with us as well.
    Ms. Tsongas. Mr. McLaughlin, would you like to comment at 
all?
    Mr. McLaughlin. I agree with what General Petraeus said. I 
don't want to take a lot of your time other than to just say, 
in my old world, the world of intelligence, which General 
Petraeus has also led, the relationship we have with other 
intelligence services is extraordinarily important. People 
sometimes ask me: ``Why don't we do all this stuff ourselves?'' 
And when I would have a small intelligence service come into my 
office from some tiny country, they would always say: ``Oh, you 
are so big, and we are so small.'' And I would always say: 
``No, where you are, you are so big, and we are so small. You 
know your society. You know the culture. You know the 
streets.''
    So, in this world, globalized world, terrorism, you need a 
worldwide coalition in the intelligence sphere just as 
desperately as you do in the military and diplomatic arenas. 
And I trust we will continue to work for that.
    Ms. Tsongas. And I would say we need to be mindful of not 
sending conflicting messages in order to maintain the 
durability of those partnerships so that we can work together 
to meet the common threats that we share.
    Thank you, and I yield back.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. McLaughlin, is there a solution in Syria that does not 
include the Russians?
    Mr. McLaughlin. Well, you know, isn't that the question? I 
would say, if we went back 3 years, I might have said yes, but 
let's face it: Putin has played his cards very well. He is now, 
if not the kingmaker, he certainly has a seat at the table. It 
is very hard for me to imagine a future circumstance in which 
Russia does not have a voice in the outcome in Syria.
    Mr. Scott. I agree with you 100 percent.
    And, General Petraeus, whenever I have been overseas and 
talking with our friends, they talk about the risk of terrorism 
to Russia, to Putin, and to the Russian citizens.
    And in dialogue with Russian generals, do they recognize 
the threat from ISIS and terrorism to their country?
    General Petraeus. Oh, absolutely. And they have combatted 
it and have had huge challenges fighting it, of course.
    Mr. Scott. And so, to us as Americans, we believe that the 
instability in Syria increases the threat of and the risk of 
terrorism actually impacting our country directly. Would they 
share that same opinion?
    General Petraeus. They would. I would actually highlight 
that the even bigger issue for us is what it has done to our 
European allies and partners.
    Mr. Scott. I agree.
    General Petraeus. A tsunami of refugees has caused the 
greatest challenges in domestic political terms that they have 
had in decades.
    Mr. Scott. Absolutely. And so I think there is an area here 
where the United States, our allies, and Russia and others who 
are not our allies have a common interest. And I do think that, 
sooner or later, the United States is going to have to sit 
down, have a discussion with Russia, and see if we can come to 
some common ground on how we resolve this situation.
    General Petraeus. Of course, we have been sitting down with 
them. And, unfortunately, what we have been trying to achieve 
has obviously proved to be unobtainable.
    Mr. Scott. Fair enough. Fair enough. But I don't buy into 
Putin wanting Assad to stay. I think he is smart enough to 
recognize that Assad is going to go. I think he wants an 
organized, negotiated resolution that removes Assad and has 
somebody in there that would be loyal to Russia. Obviously, we 
don't want somebody that would be loyal to Russia.
    I just wonder, as we go through the negotiations, the other 
thing that keeps coming up is we have this area where we have 
this common interest in finding a resolution to Syria because 
the refugee crisis creates a tremendous number of problems for 
our friends, especially many of our NATO allies.
    I wonder, if we didn't go ahead, from our standpoint, 
controlling the things that we can absolutely control, fully 
fund the European Reassurance Initiative so that General Hodges 
has what he needs to make sure that the Baltic States and the 
others--I wouldn't say are not at risk--but certainly that 
Putin understands that we are going to hold that alliance 
together and protect our friends. So that shifts, take that 
aspect out of it as best we can first: go ahead and commit to 
fully funding the European Reassurance Initiative, and then 
negotiate some type of Syria resolution.
    I am just interested in your thoughts on----
    General Petraeus. Well, there are a number of issues there.
    Mr. Scott [continuing]. What steps we take.
    General Petraeus. Those are a couple of those. I think one 
of the questions is, do we seek to link Syria, for example, to 
Ukraine or do we try to address it just as an issue, which I 
think may be the better approach. Certainly, there needs to be 
a strategic dialogue between the United States and Russia, 
something that we have not had for some time, very cold-eyed 
confrontation of each other's vital interests and so forth, red 
lines.
    But when it comes to Syria, I think, again, the objective 
there needs to change somewhat from not--certainly, the common 
objective that we will have is defeating the Islamic State and 
the Al Qaeda affiliate, Jabhat Fateh al-Sham, but I don't know 
that it is possible to negotiate a settlement that results in a 
democratically elected pluralist democracy in Damascus for all 
of the country.
    And I think the question is whether the objective shouldn't 
be ``stop the bloodshed''; and if the objective is ``stop the 
bloodshed,'' then you will probably look at some alternative 
methods of going about that.
    Mr. Scott. Gentlemen, thank you. I am out of time.
    Mr. Chairman, I just hope that we will fully fund the 
European Reassurance Initiative and take the questions of our 
resolve off the table as to whether or not we would defend our 
allies.
    General Petraeus. That is the issue of firmness. And 
General Hodges is a great soldier and former Screaming Eagle of 
the 101st Airborne.
    Mr. Scott. Yes, sir. He is still screaming.
    The Chairman. Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you.
    And thank you both, gentlemen, for your extraordinary 
service and for your very insightful presentations this 
morning. It was, I think, very helpful.
    The former CIA Director Michael Hayden commented on the 
President's Muslim ban. These are his words, quote: ``It is a 
horrible move. It is a political, ideological move. And, in 
fact, what we're doing now has probably made us less safe today 
than we were on Friday morning before this happened, because we 
are now living the worst jihadist narrative possible, that 
there is undying enmity between Islam and the West. And, 
frankly, at the humanitarian level, it is an abomination.'' 
These aren't words of an Obama administration official or the 
ACLU [American Civil Liberties Union]; these are the words of a 
four-star general and George W. Bush's appointee to the post of 
CIA Director.
    Do you agree with General Hayden's assessment, General 
Petraeus?
    General Petraeus. I might offer a slight bit more nuance 
than his on Morning Joe or wherever that was. But, again, as I 
mentioned earlier, it is always worth testing any policy by 
asking whether it will take more bad guys off the street than 
it creates. And I think this is one where, if you had done the 
kind of staffing that perhaps might have been done, that would 
have been identified earlier on.
    Mr. Scott. Mr. McLaughlin.
    Mr. McLaughlin. Well, ditto to what General Petraeus said. 
I would only add the thought that, when I saw the reaction to 
the EO [Executive order], my thought was, this is the action of 
an administration that hasn't--I am leaving my politics out of 
this. This is the action of an administration that doesn't yet 
know how hard government is, because you always have to ask, 
what are the secondary and tertiary consequences of what you 
are about to do? This was the import of the sign that General 
Petraeus had in his headquarters.
    And probably the proper way to have done this--because 
certainly our visa policy needs to be examined--would have been 
to assemble all of the relevant players and ask, ``what are the 
consequences of this thing we are about to do,'' and then build 
into that assessment an implementation that would have avoided 
a lot of these problems.
    Ms. Speier. All right.
    Mr. McLaughlin. I would like to think an administration 
learns these lessons, but we will have to see.
    Ms. Speier. Thank you.
    General Petraeus, the President has said that he has talked 
to a lot of people in the intelligence community who are big 
believers in torture. What is your opinion of the use of 
torture in intelligence gathering?
    General Petraeus. Well, and on that, I was pleased to see 
that he has deferred to General Mattis, who believes as I do, 
that, first of all, it is wrong. And if you don't buy that, it 
is also generally not the best way of going about getting 
information from a detainee.
    Now, there is an exception, and I think we actually all 
should realize that there is the so-called ticking time bomb 
scenario. And in that scenario, I think that, frankly, the 
policymakers owe those who might be the executors of policy to 
address that. I tried to raise this in my confirmation hearing 
for CIA Director, and no one wanted to touch it.
    But for your normal detainee operations--and no one was in 
charge of more detainees than the guy who commanded the surge 
in Iraq. We had well over 20,000--I think it was 27,000 
detainees at the height of that and then also during the surge 
in Afghanistan. And our experience was that, along with General 
Mattis' colorful line, ``Give me''--I think it was--``a beer 
and a hot dog''----
    Ms. Speier. A pack of cigarettes.
    General Petraeus. A pack of cigarettes. Our view was a 
little bit more to try to establish a relationship with the 
detainee, have very skilled translators and interpreters and 
interrogators. They understand the network, the organization. 
And they establish a relationship, as we say, become the 
detainee's best friend.
    By the way, I published something on this when I was a 
commander in Iraq. It was called, ``Living Our Values.'' I 
said: Look, we can get very, very frustrated. The enemy visits 
things on us that we find absolutely abhorrent and barbaric. We 
cannot sink to their level.
    You can argue whether enhanced interrogation techniques 
will work or not. There is an argument. I don't buy it, but 
there are those who argue it.
    Ms. Speier. General, I want to get one more question in.
    General Petraeus. But at the end of the day, you will pay a 
much higher price for having done that than the value that you 
will get from using those techniques.
    Ms. Speier. Thank you. One last question to both of you. 
NATO, do we need to stay in NATO, regardless of what our 
colleagues and the various other countries contribute to it?
    General Petraeus. That is a loaded question. We need to 
stay in NATO, but we need our NATO partners to do more. 
Interestingly, having just been in Europe in the last month or 
so with a number of security leaders of NATO, they actually are 
taking the challenge that President Trump has given them very 
seriously, which they did not in many cases in the past when 
Secretary Gates lectured them or President Obama did. And a 
number of them said: You know, maybe we really need to do more. 
So----
    Ms. Speier. Thank you.
    I yield back.
    The Chairman. Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    General Petraeus, good to see you again. I am going to 
refer to your written remarks. Quote: ``Our most important ally 
in this world,'' referring to the conflict with Al Qaeda, the 
Islamic State, Boko Haram and the like, ``is the overwhelming 
majority of Muslims who reject Al Qaeda--and their fanatical 
barbaric world view,'' end quote.
    How confident are you today that the, quote, ``overwhelming 
majority of Muslims,'' end quote, to which you refer will 
defeat the Islamic State without a major world power's 
intervention or support?
    General Petraeus. Oh, no, they need our enabling. But they 
are critical to this fight. Without them, again, if the 
populations ever turn either very supportive of these 
individuals or very rejecting of us, then, obviously, the 
conditions change completely, and we are in a very, very big 
world of hurt, as they say.
    Mr. Brooks. The same question, but with respect to Boko 
Haram. How confident are you that the, quote, ``overwhelming 
majority of Muslims,'' end quote, will defeat Boko Haram 
without a major world power's intervention or support?
    General Petraeus. Oh, again, absolutely they need enablers. 
The challenge in Nigeria, of course, was that we had a very 
difficult time finding good partners to combat that when I was 
in my final position in government.
    Mr. Brooks. And would your answer be the same with other 
entities, like Al Qaeda and the Taliban, that, without major 
world power or support, the overwhelming majority of Muslims 
would not be able to defeat them?
    General Petraeus. I think in virtually every case, our 
assistance is invaluable. I can certainly envision cases where 
a country can do this on its own. I think that Saudi Arabia 
defeated, if you will, Al Qaeda, say, a decade or so ago. 
Certainly, there was a partnership there. There was 
intelligence sharing. There was assistance in a variety of 
ways. But they were the ones who defeated Al Qaeda in their 
country. There are other examples of that, where countries have 
also defeated Al Qaeda or held it back.
    But, again, in the cases where this becomes I think hugely 
important--i.e., it is spilling over the boundaries; it is 
spreading extremism, instability, and refugees into neighboring 
countries and even farther--then clearly there is a role for 
the United States and a coalition of allies, noting that we 
want as many as we can there, and we want Muslim partners in 
this as well.
    Mr. Brooks. Given your comments that, as I interpret them, 
seem to say that the support of a major power is either much 
needed, if not necessary, to defeat these Islamic terrorist 
groups, is it your judgment that Islamic extremism is destined 
to dominate Islamic nations unless the world powers intervene 
with manpower, weaponry, and other material support?
    General Petraeus. No. I think, again, there are certainly 
many Muslim countries around the world that can either deal 
with this themselves or with a modicum of sort of the 
traditional sharing and so forth and perhaps some training and 
assistance.
    It is more the case in the ungoverned spaces where I think 
we have to learn five very, very important reasons or lessons, 
if I could, very quickly. First is ungoverned spaces----
    Mr. Brooks. If I could interject.
    General Petraeus [continuing]. Will be exploited by 
extremists. It will be.
    Mr. Brooks. General, thank you. You have answered my 
question.
    General Petraeus. Okay.
    Mr. Brooks. Any additional comments you want to give, 
please submit them in writing. But I want to move to a second 
line.
    You also state in your written remarks, quote: ``We must 
also recognize that long-term success in this conflict requires 
that the ideology of Islamic extremism is itself discredited,'' 
end quote.
    What, in your judgment, is the source of the, quote, 
``ideology of Islamic extremism,'' end quote, if it is not the 
Koran and the imam or Islamic leader's interpretations of the 
Koran?
    General Petraeus. It is a very twisted interpretation and, 
again, an interpretation that is rejected by the mainstream 
religious scholars of Islam. But there are diabolically, 
barbarically skillful uses of phrases from the Koran to justify 
this very extremist behavior, and it is sufficiently convincing 
to some who are in certain circumstances in life and so forth 
that it motivates them to join them.
    Mr. Brooks. Okay. If I could interject----
    General Petraeus. Of course, one of the great ways to 
discredit them is to defeat them on the battlefield because 
nothing succeeds like success in the internet and so forth 
where they are recruiting like success, and nothing is worse 
than failure on that battlefield. And that is why it is so 
important to beat them.
    Mr. Brooks. Well, you answered my second question before I 
even asked it. Thank you.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. And, Mr. Chairman, 
thank you for convening this panel. I cannot think of a more 
ideal way for us to begin this session of Congress and the work 
on this committee than to have your insight and experience and 
guidance on the work before us. And I also want to thank you 
both for your service to this country and the insight that you 
provided to the committee today.
    General Petraeus, I don't think I have heard a better 
articulation of America's role in the world than the one that 
you gave at the outset of this hearing and your reminder that 
this international order, of which we are the lucky heirs, did 
not will itself into being and did not sustain itself. There 
has been a tremendous cost in lives and treasure in order to 
achieve what we have today. As imperfect as it may be, it beats 
the alternatives.
    And I have got to tell you, I wish that previous Congresses 
and our past administration took your guidance to heart when it 
comes to having strategic clarity, when it comes to ensuring 
that we don't excuse or tolerate the most egregious violations 
of the international order. There are real costs to that that 
we are bearing today.
    And by that same token, I hope the current administration 
hears you when you said today that there is a cost to this 
spiral of protectionism to that international order, when you 
underscored the importance of our alliances, and someone else 
pointed out that NATO might be one of the most important, if 
not the most important, and the importance of not alienating 
our closest allies in the fight against ISIS, the majority of 
Muslims, who absolutely abhor the fundamental ideology that 
underpins ISIS. So, incredibly important for us to get those 
messages today, but we don't control the administrations. We 
are a separate, co-equal branch of government.
    What is your advice for us on this committee in Congress 
when it comes to how we authorize the use of military force, 
the oversight and control of that force? And the fact that we 
have what is approaching 16 years of an Authorization for the 
Use of Military Force [AUMF] that has been used in Afghanistan, 
Iraq, Syria, Yemen, Somalia, and Libya, is it time for us to 
write a new authorization more closely tailored to the needs 
that we have today? Is this open-ended, fairly vague 
authorization sufficient for the crises we face? And what kind 
of additional oversight would you like to see and guidance 
would you like to see from Congress going forward?
    General Petraeus. I think it is long overdue. I think 
Congress has failed in its responsibility in that regard. The 
previous administration requested on a number of occasions. 
Leaders of Congress pushed hard for that, and for some reason, 
there was an inability to come to grips with this. So the 
result has been that the previous administration had to 
constantly test the elasticity of the authority to use military 
force to, not just Al Qaeda, but Al Qaeda affiliates, and son 
of Al Qaeda, Al Qaeda and ISIS, the grandson, the cousins, and 
so forth, and this is where we are in the challenge. And to be 
fair to the previous administration, relative to the use of 
force against the Taliban, you know, is that explicitly covered 
by the authority to use military force, which was about Al 
Qaeda and 9/11 and those related to Al Qaeda? You know, you can 
make a case for it, but why not have Congress perform the role 
that it is supposed to perform and actually debate these 
issues, hear from the Cabinet Secretaries and the White House, 
and then provide what you believe those individuals need 
within, you know, your own wisdom and judgment?
    Mr. O'Rourke. Mr. McLaughlin, any thoughts on the 2001 
AUMF, whether it should be amended, closed out, reopened under 
a new authorization that is specific to the threats that we 
face in 2017?
    Mr. McLaughlin. I just completely agree with General 
Petraeus on that.
    General Petraeus. I participated as the Director of CIA, 
and I think even before that, a couple of different efforts 
where we sought to recast the AUMF, to update it, to bring it 
into the, you know, the new decade, if you will. And there was 
never sufficient traction up here to get that done, and I think 
it really should be done to----
    Mr. McLaughlin. I would only add that I was present in 2001 
when all of that occurred. And we have to remember that was 
done hastily and in emergency circumstances that the United 
States had never faced before, and it served adequately for a 
period of time, very adequately; but, again, I would just ditto 
what General Petraeus said.
    Mr. O'Rourke. I hope your presence today helps to create 
the political will to do that because I agree it is very 
necessary.
    Mr. Chairman, I yield back.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service and your testimony 
today. You talked a lot about ISIS and radical extremism and 
how to address this generational threat, and I appreciate your 
insights on that.
    As we are looking at going after the core ideology and the 
roots of that, what are your thoughts on addressing some of 
our--or working with some of our, quote-unquote, allies who 
have historically been funding schools around the world that 
are teaching fundamentalist versions of Islam? There is no 
large leap between a fundamentalist version and then someone 
taking the leap to extremism. It is like the frog in the, you 
know, the water being turned up one temp--you know, 1 degree at 
a time, or other countries that are our allies that have been, 
you know, funding these types of organizations? Without naming 
them, can I hear some of your thoughts on that as far as 
getting to the very underlying issue of the ideology?
    General Petraeus. No. I think we absolutely should engage 
partners whose governments or indeed individual citizens are 
doing what you described. That is not to say that there hasn't 
been engagement on this in the past.
    I would add, for example, that I had a lot of discussion in 
relationship with individuals in Saudi Arabia over individual 
citizens that were alleged to have been funding different 
organizations, extremist organizations, and so forth. And I can 
tell you that they were good to their word that, if we could 
ever show true evidence of this taking place, that they would 
deal with it. The challenge is that typically individuals have 
learned how to move money without certainly using the SWIFT 
system or something like that and were using Hawalas or other 
means, and then it becomes much more difficult, although there 
were interdictions as well in cases like that. And we engaged 
those Gulf States in which that was taking place on a very 
regular basis, as did our Treasury Department counterparts.
    Ms. McSally. Great. And what about, Mr. McLaughlin, in the 
madrassas and the funding of just the indoctrination of a 
fundamentalist version that then is not a far leap to 
extremism?
    Mr. McLaughlin. Well, this is the toughest problem we face, 
I think, because, on the one hand, you need these societies to 
be working with you; on the other hand, they have within them 
this problem, which manifests itself in the way you suggest. I 
too had worked with the Saudis and with many others on this. I 
agree with what General Petraeus said about their willingness 
to help if you can document your point.
    I see the way to do this in sort of two ways. First--it has 
been a long time since I have had access to the data on 
precisely who is funding and so forth, but I suspect it hasn't 
changed all that much. And the two things you have to do are 
aggressively attack what you can see and detect. So in terms of 
supporting terrorism, you go after fundraisers, people who move 
money, and people who raise the funds, those three categories. 
And the latter two are easier, and you can go and find them, 
and we were very successful with disrupting them. And then, 
based on that evidence, you go to the countries where the 
fundraisers are coming from and you present them with that 
evidence. And you just keep battling this problem.
    But these societies are like ours. They have strongly 
discordant, different, divergent points of view, and you go to 
the leadership, and they tell you that. They say, well, we 
don't want this to happen, but we don't have complete control 
over everyone in our society, just as we don't.
    Ms. McSally. Right.
    Mr. McLaughlin. And it is the toughest problem we face, I 
think.
    Ms. McSally. Great. Thanks. Shifting gears towards Russia, 
I mean, just looking at them as a country, they have got a 
nondiversified economy; they have got a declining demographics; 
yet they are still, you know, military buildup, foreign 
adventurism, meddling all over the world. Is this sustainable, 
and how do you see that playing out?
    General Petraeus. It is not. They used to depend on export 
of oil and gas to produce 60 percent of their government 
revenue. Obviously, the price of each of those has declined 
somewhere around a half or so. And, again, you mentioned the 
other challenges that they have, also a relative degree of 
dysfunction in their economy. To say that there are market 
distortions would be a bit of an understatement. So, no. 
Clearly, there are challenges there, and what Vladimir Putin 
has done, as John explained, is shift from providing for the 
people when the prices of oil and gas were high, to now 
providing ``at least Russia's a great country again''----
    Ms. McSally. But that can't last.
    General Petraeus [continuing]. That kind of inspiration. 
There are limits to how long that can go, and that is why he 
wants to get out of the sanctions.
    Mr. McLaughlin. It is not sustainable, but the one way that 
they will keep it going is by deepening authoritarian policies, 
and that is what we see happening. I was told in Russia, by 
people who are well plugged into the society there: Don't make 
the assumption that there will be some sort of uprising here 
against this. It is not going to happen.
    So it is not sustainable, but it is not going to crack 
overnight.
    General Petraeus. Yeah.
    Ms. McSally. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    General Petraeus, it was an honor to serve with you. It is 
an honor to have you here.
    General Petraeus. Semper fi.
    Mr. Moulton. All the way.
    I have often said that you are the best boss I have ever 
had, and I am grateful for your service.
    And, Mr. McLaughlin, thank you so much for your service, 
often much more behind the scenes, but so incredibly important 
as well.
    Taking the strategic view, General, when we look at getting 
the big ideas right from this committee, would you say that our 
challenge in fighting ISIS in the Middle East is more about 
killing more bad guys on the ground and taking territory from 
them or more with the fight against the underlying causes, the 
political issues, their recruiting efforts and whatnot that 
allow them to sustain their effort?
    General Petraeus. It is, of course, all of the above, as 
you know. Again, if you think back to the surge--and thanks 
again for your great service during that time and in several 
earlier tours--it was always a comprehensive approach. 
Certainly----
    Mr. Moulton. Right. If you look----
    General Petraeus. Certainly, you have got to kill or 
capture----
    Mr. Moulton. Right.
    General Petraeus [continuing]. A lot of the bad guys. You 
have got to take away their terrain. You have also got to take 
away their funding, their sanctuary, their ammo, their 
explosive experts, their communications, command and control, 
sanctuaries, and all the rest, but then to reinforce, to build 
on the security gains is the other pieces of this.
    Mr. Moulton. Which part are we doing well and which part 
needs more work?
    General Petraeus. We are clearly doing well at enabling our 
Iraqi partners, who have now been reconstituted, retrained, 
reequipped, and so forth, and taking away that territory from 
them, killing or capturing a large number of the Islamic State 
forces. We are killing a large number of them as well. The 
question is the sustainability of this. Again, it is the battle 
after the battle: What happens after Mosul is cleared, the rest 
of Nineveh province is cleared? Can there be an inclusive 
governance that guarantees minority rights as well as majority 
rule? If that is the case, you won't see fertile fields for 
planting of the seeds of extremism and ISIS 3.0. If not, I fear 
that we may see that movie again.
    Mr. Moulton. Unfortunately, that reaffirms my fears as 
well, that we don't really have--we have been doing very well 
at taking killers off the battlefield. We haven't been doing as 
well at making sure we have a sustainable political solution to 
come after.
    Mr. McLaughlin, would you say that----
    General Petraeus. What is interesting is I think we did 
have that in Iraq for a good 3\1/2\ years----
    Mr. Moulton. I agree.
    General Petraeus [continuing]. Or 4 years. So----
    Mr. Moulton. I agree.
    General Petraeus [continuing]. In the second surge----
    Mr. Moulton. It is not impossible, in other words. Yep. And 
it can be done.
    General Petraeus. It can be done, but it also can be 
undone, tragically.
    Mr. Moulton. Mr. McLaughlin, would agree with that 
assessment?
    Mr. McLaughlin. Yes. I would just add for emphasis that the 
changing the conditions is the hardest part. When we testified 
here about a year ago, I was with Ryan Crocker, and I remember 
the term that Ambassador Crocker used over and over and over 
again in talking about what we need to do in Iraq is engage, 
engage, engage, engage, and he implied that we weren't engaging 
as much as we should be with the government to keep moving 
toward this reconciliation between the Sunni and Shia portions 
of Iraq.
    Mr. Moulton. Thank you, General.
    There has been a lot of testimony, a lot of questions asked 
about the President's travel ban. And I appreciate your test 
that it does not meet, which is taking more people off the 
battle--more bad guys off the battlefield than it perhaps put 
on, but let's get down to moving forward here. What can we do?
    General Petraeus. I think it is already happening. I think 
there has to be clarification. There have to be exceptions, 
exemptions and so forth. And then let's determine what are the 
additional steps or actions that need to be taken so that we 
are reassured about those who are coming to our country and 
then move forward and communicate this with our allies, with 
our partners, especially, obviously, our Muslim country 
partners.
    Mr. Moulton. What can we in Congress do to change the 
perception of the order and improve this communication with our 
allies?
    General Petraeus. Well, I think for those Members of 
Congress in the oversight committees where this is most 
applicable, certainly communicating with General Kelly, 
especially in this case, since he is the organization that is 
most engaged with this, but also State and Defense and others. 
And then, I think, having satisfied yourself that there is a 
solid approach going forward, there has been a good after-
action review, as we would have said in the wake of this, that 
then I think you can offer reassuring words and note that this 
is a temporary activity, and as soon as it is completed, we 
will get back to business with perhaps some additional steps or 
checks.
    Mr. Moulton. General, one last question. There have been 
reports coming out, quite a number of reports, about the role 
of dissent in the administration. There has been a State 
Department cable circulating expressing dissent with this 
order, and the administration has made statements to the effect 
that people should resign if they dissent.
    In your view, in your experience, what is the role of 
dissent in furthering our national security?
    General Petraeus. It is a very interesting question. And, 
obviously, I have thought a bit about it watching events of 
recent days. I have generally felt that disagreement, dissent, 
and so forth should be voiced behind closed doors and offered, 
and that, generally, having had your say--I mean, there are a 
number of cases publicly known where my advice was not followed 
when I was a military commander or the Director of the CIA. And 
my general view was the troops don't get to quit, so I 
shouldn't get to quit, but there could come a point in time 
where, if your advice is not taken over and over and over 
again, then I think you actually have an obligation to your own 
organization and to the country to say, ``Perhaps I should let 
you get someone whose advice you might listen to, since mine is 
not being regarded,'' and then, at a certain point, perhaps go 
public as well, having had a principled position in that 
regard.
    I am a bit uncomfortable with the very public activities, 
candidly. And I think that has to be very, very carefully 
considered as Rex Tillerson, presumably, is confirmed 
expeditiously and takes over at State.
    Mr. Moulton. Thank you, gentlemen.
    And, Mr. Chairman, thank you very much for allowing the 
extra time.
    The Chairman. Dr. Abraham.
    Dr. Abraham. Thank you, Mr. Chairman.
    Thank you, both gentlemen, for keeping us safe over so many 
years.
    We have talked about several organizations of Islamic 
terror that continue to have pretty good infrastructure. Some 
have great social media, such as ISIS, and they are all, I 
perceive as a continuing threat, albeit maybe not as great 
sometimes as others.
    What do we do? What is your advice, both of you, when we 
have a terrorist group like Hezbollah that gets embedded into a 
government like Lebanon? Where do we go from there? How do you 
counter that, because that will continue to be a continuing 
threat, because they are now in government positions?
    General Petraeus. Well, this is why I highlighted the issue 
of Lebanonization of Iraq. I think you could also highlight the 
concerns about Lebanonization of Syria, situations where 
militias get embedded in society and then take on a political 
role. And it is the height of irony that the three militias in 
Iraq that are supported and trained and equipped by Iran, 
several of them are headed by individuals who were in detention 
facilities back in our day for very, very good reasons, 
ultimately served their time. They are not just militia 
leaders; they are also now members of Parliament. So you now 
get this linkage, and, of course, these are very religiously 
linked militias as well. And you see the erosion of what we 
would see as legitimate governance, and we have seen that 
happen in Lebanon to the point where Lebanese Hezbollah at the 
very least has a bit of a veto on any action, a very 
significant check in the political world, and it should be a 
cautionary tale.
    We have also seen it, perhaps maybe more so, in the case of 
Hamas, where a militia extremist organization has actually 
taken over a slice of territory, albeit not a country.
    So, again, I think we should be very concerned about these 
developments, and this was what I was trying to highlight with 
one of the threats that Iraq does indeed face.
    Mr. McLaughlin. You know, the reason, among others, many 
reasons why Hezbollah has become embedded in Lebanon, but one 
of them is that Lebanon itself as a country was not able to 
provide for the social welfare of many of its people. So, at 
one point, I could document, when I was in government, that 
Hezbollah was responsible for the social welfare, medical care, 
schooling and so forth of about 250,000 citizens of Lebanon. So 
we have to work with countries like that that are on the front 
line to not necessarily give them money, but to help them 
develop, help them with their civic society, help them with 
their institutions in order to guard against that sort of 
problem.
    And the main reason Iran is so interested in Syria is not 
just Assad. It is the fact that is their channel to keep 
Hezbollah going. They traditionally have gone through Syria.
    Dr. Abraham. No. I know. They have got to get to Lebanon 
through Syria.
    Mr. McLaughlin. Yeah.
    Dr. Abraham. That is their highway. Just a quick followup--
--
    Mr. McLaughlin. And you have to come back, Hezbollah when 
it--you know, the other wing of Hezbollah is a militant 
terrorist wing----
    Dr. Abraham. Right. Very much so.
    Mr. McLaughlin [continuing]. And before 9/11, they were the 
principal source of trouble for the United States. So you have 
got to combat them with intelligence and military and 
diplomatic channels.
    Dr. Abraham. And so, with you-all's testimony, and I think 
everybody here would agree, we can't, as Americans, go it alone 
anymore. It is just too great--too big a bite of the apple.
    How do we get more buy-in from our allies to combat this? 
You have got China and Russia, they are on the increase. You 
have got the Middle East in chaos. What do we do to get our 
allies to even buy in more so we can combat things like the 
Lebanonization of these countries and issues such as this?
    General Petraeus. For starters, we have to lead. And it is 
not an alternative. Again, I was going to start the quick five 
lessons, but ungoverned spaces will be exploited by extremists, 
the effects will not be contained to the areas where they are. 
Las Vegas rules don't apply. Something has to be done. The U.S. 
has to lead, because only we have the assets that are capable 
of doing what is necessary, but we don't go it alone. But if we 
don't lead, no one else--or very seldom will you see someone 
else step up to the plate. And then we have got to have, not 
only in that coalition NATO and European and other members, 
but, again, Muslim countries engaged in this as well. And then 
it has to be a comprehensive effort, but without us doing all 
of it ourselves as we are able now to do, we show that we can 
do this kind of approach in Iraq. And we have to recognize this 
is a generational struggle, so sustainability does matter, and 
that is measured in blood and treasure.
    Dr. Abraham. Thank you. I am out of time. Thank you so 
much.
    The Chairman. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    And thank you both for being here. It has been very 
informative.
    General Petraeus, in your statement, you say, and I am 
quoting you: ``As a result of America's values--political 
pluralism, rule of law, a free and open society--we can recruit 
the best and the brightest from every corner of the planet, a 
strategic advantage that none of our competitors can match.''
    I agree with you that this openness is a strategic 
advantage, and that is why I am concerned about some of the 
recent actions that we have seen this new administration take.
    What is going to be the impact if we can't recruit from the 
best and the brightest from every corner of the planet? Will 
people who are looking to come here and bring their gifts and 
their talents here look at this and say, ``Well, maybe they 
will fix it this time, maybe the United States will back off a 
little bit, but for long term, I am not sure that the United 
States is going to welcome my particular family and the gifts 
and the talents that I have''? Do you have concerns about that? 
It is not just like the 120-day ban. I am looking forward, 
saying, when people decide where they are going to live and 
where they are going to, you know, bring their gifts and their 
talents, what impact do you fear that might have, or don't you?
    General Petraeus. Sure. This is a huge part of our economy. 
By the way, as the Congress takes up the discussion of the H-1B 
visa limit or not limit or raise the limit or whatever, this 
will be a big issue there as well, and getting that right is 
vitally important to certain sectors of our economy, in which--
sectors in which we lead the world, the IT revolution, 
manufacturing revolution, life sciences, and so forth. So it is 
critically important.
    And, oh, by the way, if you ever fly into Canada, you will 
see signs up there that literally say: ``Can't get an H-1B 
visa? Happy to have you.'' So there is competition out there. 
There are other countries that will welcome the best and 
brightest of the world.
    I still think that our beacon burns brightest. I think this 
is the place where people want to go. Even those who criticize 
our country typically fight to send their sons and daughters to 
our universities. So I think that is going to continue. We will 
get through the current kerfuffle here and then become once 
again, I think, and as we are, the place where everyone would 
like to go to school, work, and raise a family.
    Ms. Shea-Porter. I agree with you.
    Mr. McLaughlin. I just have to add, I teach at a university 
down on Mass [Massachusetts] Avenue. We have about 50 different 
nationalities represented in that little school, and I am 
astonished at the diversity of experience and expertise when I 
sit down with my students. So that is a vital part of America, 
end of story.
    Ms. Shea-Porter. And it is a great gift to us and a gift 
that we give as well.
    And then I want to shift a little bit and talk about 
Russian Television. I was very shocked to go to a hotel in this 
country and turn on the channel, and there was Russian 
Television. So I watched it. And it was subtle, but it was 
definitely propaganda. And so I have been asking other people 
from other countries, you know, are they seeing it as well? And 
the answer is yes, they are. And I think we have been rather 
silent about it, you know, the impact that this could be 
having, in addition to all the other steps that the Russians 
have taken.
    So I would like you both to address that. You know, are we 
concerned enough or over-concerned or what?
    General Petraeus. No. We should be concerned about it. It 
is not unique to Russia. I mean, remember all the issues we had 
with Al Jazeera. I remember as the CENTCOM [Central Command] 
commander going into Qatar and saying: ``You know, you have got 
to--you have our air base. You have my forward headquarters. 
You have done all this. And you are allowing this state-funded, 
by and large, to beat us up on television. So how about taking 
it easier?'' So, again, this is an issue that is, again, not 
unique just to those two countries either. And by the way, 
Qatar did over time make adjustments and so forth.
    But at the end of the day, this is about competition. It is 
about, again, what people want to watch, what do they feel is 
truly fair, and so forth. And I think, as a matter of fact, 
that Al Jazeera English--or America went away. It is a 
competitive process.
    So, again, we have just got to make sure that we provide 
the context in terms of the laws and so forth and the 
regulation that ensure that those media that emanate from here 
are ones that are seen as attractive to others abroad, 
``attractive'' meaning in terms of objective, fair, honest, and 
so forth.
    Mr. McLaughlin. Yeah. When I was in Russia in October, it 
wasn't so subtle. What you saw on the media there on television 
were programs for the Russian population projecting war with 
the United States and advising people to prepare their bomb 
shelters. A little hard to believe, but that is what Russian 
citizens were hearing at that time.
    The television you are seeing here is much more subtle. It 
is very effective. And there aren't a lot of things that Russia 
does well, but this is one of the things that it does very 
well. It comes out of having been a national security state for 
so many decades. It is an inheritance of that. So they put a 
lot of effort and emphasis into this. Smart people run it, 
linguistically talented and well-trained.
    So as General Petraeus says, it is a competitive world. We 
have to just be aware of that. We should probably pay more 
attention in the United States to our overall policy of 
strategic communications with the world.
    General Petraeus. Yeah.
    Mr. McLaughlin. Maybe General Petraeus might want to 
elaborate on that, but that is something where I think we have 
dropped the ball a bit in recent years.
    Ms. Shea-Porter. Thank you. I would agree. And I yield 
back.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    And thank you to both of you for your enlightening 
testimony here to us today. You have both described the 
significant challenges facing us with Russian growth and 
involvement in Europe, the Middle East, and even here at home. 
I want to ask questions specifically related to NATO. You have 
talked about our allies and the significance of our allies 
around the world, but for a moment, I would like to turn our 
attention to NATO.
    General, you know firsthand how important NATO is as a 
partner to the United States of America in combating the 
threats that we face, but in my opinion, NATO serves today as 
the prime target for Russia and Putin. At the same time, the 
Trump administration, President Trump himself, has drawn some--
has indicated some interesting questions and rhetoric regarding 
our future relationship with NATO, our involvement in NATO, and 
that is really my question to both of you. What is your advice 
to President Trump, your insight that you can direct there, and 
what are some ways that we can strengthen our relationship with 
NATO moving forward to combat the threats that we face?
    General Petraeus. Well, I think, again, that Secretary 
Mattis has spent a great deal of time on the telephone and 
meeting visitors already here, and now on his travel, to 
reassure our allies and partners around the world, and has 
spent a lot of that particularly with NATO. You know, he held a 
four-star billet in NATO. I was a one-star, three-star, and 
four-star in NATO billets. It is a hugely important 
organization. As General Mattis said, if it didn't exist, we 
would have to invent. It is the most successful alliance in 
history.
    Having said that, NATO does need to continue to change with 
the times. It does need to continue to evolve to address new 
threats now in the cyberspace as a true battle space in 
particular. Its members do need to spend more. They cannot 
freeload in the way that they have in the past. And I think 
that they are--the President has gotten their attention with 
respect to that, as I mentioned my experience at the recent 
gathering of security leaders from Europe.
    So, look, we have got to sustain it. We also have to 
encourage its members to do more for themselves but certainly 
to stay together as well.
    Mr. McLaughlin. Yeah. When George Shultz was Secretary of 
State, he used to say about diplomacy that you have to 
continually tend the garden, by which he meant you have got to 
go there, you have got to talk to people, you have got to 
listen to them. I think that is what I would--that is the way I 
am thinking about NATO these days. General Mattis is off to a 
great start on that point. But what I mean is that the Russians 
are doing that. They are trying to get into our garden and tend 
it. They are looking for opportunities among the NATO 
countries, remember, NATO has gotten very big, just as the 
European Union has gotten big, and they are looking for 
opportunities in places where they traditionally have had good 
relationships with locals, such as Bulgaria, some of the East 
European countries, where they think they can peel members away 
from NATO or make them less likely to be firm in the event of a 
conflict. So we have to tend that garden. It isn't all in 
Brussels. We have got to go to each of those NATO countries and 
talk to them--Congress would be a great vehicle for that, our 
administration and so forth--and strengthen NATO at the roots.
    Mr. Banks. General, if I could turn my focus back to 
Afghanistan. You spoke briefly much earlier about our role 
there. Currently, in the news over the last couple of days, the 
disintegration of the rule of law in Afghanistan is under siege 
by Vice President Dostum, who appears to be a rogue operator 
within the Afghan Government. Over the past year, we have seen 
other examples of disintegration of the rule of law there just 
by billions of dollars that we have spent and our efforts, 
along with our NATO allies, in Afghanistan.
    What evidence do you see that might give us some foresight 
that we can turn that around and get Afghanistan back on the 
right track in the future?
    General Petraeus. Well, I think the most important 
indicator there is the fact that Afghan forces are fighting and 
dying for their country, unfortunately in larger numbers than 
perhaps needed to be the case if we could support them more 
effectively. And to be fair, now we have relaxed those rules of 
engagement, and we are doing more than we have been able to in 
the past. I know that General Nicholson is looking at what 
adjustments could be made to the structure of his force, to the 
numbers of his force, again, to the rules of engagement. 
President Ashraf Ghani is someone who is committed to what I 
would assess is all the right things, but it is a very, very 
tough situation. And this is why, again, I think we have to 
have a sustained commitment, not one that every single year you 
are doing another relook and everyone gets very anxious about 
whether or not there is going to be another drawdown and so 
forth. Thanks.
    Mr. Banks. Thanks again. I yield back my time.
    The Chairman. Ms. Rosen.
    Ms. Rosen. Thank you. I want to thank you both for being 
here, for your thoughtful and thorough testimony today, and, of 
course, your service to our Nation.
    You know, just this past weekend, Iran tested a ballistic 
missile, as we know, a violation of the agreement in the 
international community. Some say overtly this aggressive 
action does not violate the letter of the law, but it cannot be 
denied that Iran's missile launch violates the spirit of the 
law. That is why I am working with my colleagues to look 
explicitly at the possibility of expanding sanctions against 
Iran to include a prohibition on the acquisition and use of 
ballistic missiles.
    So, thankfully, the test failed, but my question is to you. 
In the worst-case scenario--this missile went about 500 miles, 
a distance from my home in Las Vegas to about Sacramento. In 
the worst-case scenario, what happens if Iran does have a long-
range ballistic missile?
    General Petraeus. First of all, Iran does have a variety of 
different missiles of a variety of different ranges. The 
concern in this case, I think, is the gradual development of 
technology that would at some point down the road enable them, 
if they can develop a nuclear weapon, miniaturize it, and put 
it on the nose of this, to then threaten our partners and our 
ally in the region or perhaps even farther, and that is the big 
concern.
    And, of course, this is a country that may or may not be 
deterred by the traditional forms of deterrence that have 
worked with other so-called rational powers in the past when we 
have had thousands of nuclear weapons pointed at each other. So 
I think that is the big concern. That is why there is a 
determination not to allow them to have nuclear weapons.
    And if I could offer something, as people are looking at, 
you know, the nuclear deal and all the rest of this, however 
imperfect it may be, it is a multilateral deal. If you tear 
that up, you are probably more likely to isolate yourself than 
Iran. And it appears that the President has concluded that, 
based on his conversation with the King of Saudi Arabia, in 
which he said there will be very strict enforcement of it, 
which there should be.
    Congress might actually consider working with the White 
House at this point in time on a statement of national policy 
that says that Iran will never be allowed to enrich uranium to 
weapons grade. Now, this should not cause concern for Iran, 
because it says it does not want nuclear weapons, so there 
should be no big concern there. And then, by the way, then very 
clearly maintain the capability of U.S. Central Command to 
carry out whatever contingency plans it might have to have, and 
which it does have, in fact, to ensure that it could act to 
enforce that policy.
    Mr. McLaughlin. I would augment that by pressuring Iran to 
ratify the additional protocol of the NPT [Non-Proliferation 
Treaty], which I don't think they have done yet formally. They 
kind of accepted it in principle, but they have got to ratify 
it in their Majlis [parliament], because once they do that, 
they subject themselves to very intrusive monitoring beyond 
what they have now in order to keep them from getting to that 
point of a nuclear weapon.
    Also, in my old field, I would keep an eye on how other 
countries are working with them. Their medium-range missile, 
the Shahab-3, is based on a North Korean design. So there is 
probably some stuff going on there. The Russians back in the 
nineties helped them with missile testing. We worked hard to 
get the Russians off of that. I went to Russia many times and 
made that point. And I think they backed off, but we need to 
keep our eye on that Russian-Iranian relationship as well.
    And, basically, I support what General Petraeus said about 
the nuclear declaration. All of those things together kind of 
reinforces the point we were making earlier. It is a 
complicated world; you have got to work with a lot of other 
countries to get this done.
    Ms. Rosen. Thank you. I yield back the balance of my time.
    The Chairman. Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman.
    Thank you very much, General Petraeus and Mr. McLaughlin, 
for your service and for being here today and for sticking it 
out till the bottom row of questioning. So I appreciate that.
    General Petraeus. Welcome to the bottom row.
    Ms. Cheney. Thank you. I got a very close eyewitness view 
of you guys. But thank you for your service. I want to ask 
about two things.
    A number of my colleagues have expressed real concern about 
actions the administration has taken and the potential for 
those actions to be recruiting tools. And I wanted to ask you, 
General Petraeus, to expand on something you began to talk 
about, which, in my view, is the largest recruiting tool of 
all, and that is failing to defeat the terrorists. And in 
particular, if you look at where the world stood, where Iraq 
stood, where the Middle East stood in January of 2009, with Al 
Qaeda in Iraq largely defeated because of what happened with 
the surge, because of your efforts and your leadership, with 
the Shia militias largely defeated, and you compare that to 
where we are today--Al Qaeda in more nations than it has ever 
been in the past, failed states across the region--it seems to 
me that the recruiting tool we really need to be focused on and 
concerned about is, what happens when terrorist organizations 
survive, when we don't take the kind of extensive action that 
is necessary to defeat them and they are then able to claim 
that they are standing up against the United States, against 
the West, that, in fact, isn't that perhaps the most effective 
recruiting tool of all?
    General Petraeus. No. Absolutely. Look, recruiting depends 
on an attractive pitch. The pitch includes: Hey, come join us; 
we are a winning team. You can--you know welcome to the 
National Football League or whatever else.
    And it is pretty hard to have that pitch if you are losing. 
And so that is why I said for so many years that it is very 
important to demonstrate that the Islamic State is a loser, not 
a winner. And the faster we can do this, the better, because 
that is the faster that they are no longer able to recruit as 
effectively. So time has actually mattered. Now, we do have 
them very much in the retreat. We have got to maintain that. We 
have got to press it to the end, and then we have got to make 
sure that the battle after the battle is successful as well. 
And we have to follow them wherever they are in the world, and 
we have the capability to do that.
    Ms. Cheney. Thank you. And let me turn now to Iran.
    Mr. McLaughlin, in your testimony, you talked about the 
Iran agreement buying us time. And I wonder if you could just 
explain your basis for that, given the real concern that many 
people had and continue to have about the total inadequacy of 
the inspections regime, where you have got the Iranians able in 
some instances with respect to the former military sites, able 
to actually to inspect themselves, where you have got the IAEA 
[International Atomic Energy Agency] having stated that in some 
instances they actually have less access now than they did pre-
agreement. I think we all, you know, would hope that that would 
be the case in terms of buying us time, but I don't see any 
evidence that we actually have any insight that could give us 
comfort into what the Iranians are truly doing, given the 
tremendous holes in the inspections regime in the agreement.
    Mr. McLaughlin. Well, I don't really disagree with that. I 
might have added the term ``warily'' to my observation that it 
buys us some time. I fall back on the wisdom of Ronald Reagan 
here: trust but verify. So a degree of trust is appropriate in 
anything that we have negotiated this carefully, but in my old 
business, and I assume, and this committee can certainly have 
access to that, that people must have--in addition to the 
formal monitoring that is going on through the IAEA, we must be 
keeping a very--we should be keeping a very close eye on this 
with intelligence means.
    And I have some confidence that we will detect cheating 
when it occurs. The professionals now in office can elaborate 
on that, but I know we have detected it in the past. We 
discovered the underground facility. We discovered Natanz, 
actually, long before it was announced publicly by an Iraqi 
dissident group. So I have some confidence that we will pick it 
up if they cross the line.
    Ms. Cheney. Well, I hope you are right. With all due 
respect, with our history in that regard with respect to 
actually being able to know about, to discover the existence of 
other nations' nuclear programs has actually not been one where 
we have been tremendously successful. As you know, it was 
Israelis who brought us evidence of the Syrian--the North 
Korean-built Syrian reactor.
    Mr. McLaughlin. Yep.
    Ms. Cheney. So I hope that is the case. And unfortunately--
--
    Mr. McLaughlin. Well, we should be talking to the Israelis 
about this one too.
    Ms. Cheney. Yes. Exactly. Well, thank you very much.
    And I yield back my time.
    The Chairman. Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chairman.
    Gentlemen, thank you all for being here.
    The Chairman. You might hit the button there.
    Mr. McEachin. Might hit the button. There we go.
    Thank you, Mr. Chairman. I want to associate my comments or 
at least my thanks that Ms. Cheney gave for you all hanging out 
for the rookies down here.
    Gentlemen, in my estimation, we were attacked recently by 
Russia when it determined that it was in its national interests 
to try to intervene in our domestic elections. I am concerned 
and disturbed that our Commander in Chief has barely 
acknowledged that attack, much less condemned it. To my mind, 
the so-called Russian bear is back on the prowl and being 
exceedingly active now. And I am interested in your thoughts on 
what this administration should do in terms of engaging Russia 
in trying to limit its influence in the world.
    And I appreciate, Mr. McLaughlin, your comments about 
Ukraine, and I did hear those, but in addition to that, what 
should we be doing?
    And then, if you have time, I would also like you to talk 
about the strategic importance of the Philippines and what we 
need to do to sort of corral them back into our sphere of 
influence, as they seem to be hell-bent on leaving it.
    Mr. McLaughlin. Well, we have talked a lot about Russia, 
and I think you have to start--I am going to say something I 
said earlier, but I feel it strongly, which is that the first 
thing we have to do is make sure we understand precisely what 
we want out of the relationship. You know, I came back from my 
time, recent trip to Russia saying to myself, the big question 
for us is, how do we want this to end? What do we want this to 
end up, because it is spiraling downward? They accept no 
responsibility for the fact that the relationship has 
deteriorated. Let's be clear about that. And, therefore, they 
are very cold-eyed and hard when they evaluate their own 
interests, and they press them aggressively. So we have to know 
what we want first.
    And I would say the things we have to want are observation 
of the rules that govern the world order, particularly the 
inviolability of borders. We cannot give that up. They have 
broken at least three treaty agreements in what they have done 
in Ukraine, one of them signed by 57 countries. So we have to 
be hard over on that. That means we probably have to keep the 
sanctions in place. We cannot reduce them. They will want to 
bargain for the reduction of those sanctions.
    And at the same time, we have to amp up our efforts in the 
leadership realm. I think Putin has stolen a march on us in the 
Middle East. Before he sent troops into Syria, I was keeping 
track of their diplomatic effort, and I cannot think of a major 
leader in that area who had not visited Moscow for diplomatic 
consultations, including our allies, in the year or so 
preceding their entry into Syria militarily.
    So we have to match them diplomatically around the world 
because they are playing a weak hand very well. We have got to 
watch what they are doing with China because they are never 
going to be natural allies, but they share an interest right 
now in checkmating us in that part of the world.
    So we are not in a new Cold War yet; that is the wrong 
term. But we certainly are in a competition with a wily 
opponent who has no opposition and total control, both of his--
can make decisions overnight. Putin basically meets with five 
other people on a Friday afternoon and decides what they are 
going to do next week. That is a little less complicated than 
our government. So agility is what we need in dealing with 
them.
    General Petraeus. And with respect to the Philippines, 
look, this is a strategically significant development that has 
taken place with President Duterte taking control of that 
government and, instead of continuing the policy of balancing 
with the United States against China, who had picked so many 
fights with them and with their other maritime neighbors, has 
seemed to be bandwagoning, is the term, more with China, or at 
least staying in-between. And so I think this is going to 
require a great deal of patience, as we are going to have to 
demonstrate capability, we are going to have to demonstrate our 
system, example, determination, and so forth, and I think that 
will be the key in the long term, but I think we are going--we 
are in for some rocky seas in that particular neighborhood.
    Mr. McEachin. Thank you, gentlemen. Thank you, Mr. 
Chairman. And I yield back.
    The Chairman. Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    General Petraeus, thank you for your willingness to always 
take a chance on young marines like Seth and myself. Thank 
you--and your continued ability to out PT [physical training] 
younger marines such as myself.
    Thank you, Mr. McLaughlin, for your distinguished service 
as well.
    My colleague mentioned Iran's nuclear program, and 
yesterday had seen the Iranians confirm that they conducted 
another ballistic missile test. Ballistic missiles are wrongly, 
in my view, not covered in many ways under the purview of this 
deal, although they are covered by multiple U.N. Security 
Council resolutions.
    How do you suggest we respond to something like that, and 
more broadly, can you talk about the difficulties of 
disaggregating Iran's nuclear program, its missile program from 
the other ways in which Iran advances its interests throughout 
the Middle East and, indeed, throughout the world?
    General Petraeus. Well, again, clearly what is happening is 
already the U.N. Security Council is going to meet on this. 
Unfortunately, there is a degree of ambiguity in the United 
Nations Security Council Resolutions on that particular topic. 
It is linked to the nuclear program. They claim this is not 
linked to the nuclear program, and therefore, it is 
permissible. So you are going to have some international 
lawyering going back and forth. And certainly there should be 
an effort to try to clarify that, to try to reduce that 
ambiguity, to try to expand the scope of the resolution, 
although I think that is going to prove to be very difficult.
    And so, again, what we are going to have to do, I think we 
have two huge interests with respect to Iran. One is to ensure 
they never get a nuclear weapon. The other is to, with our 
partners and our ally in the region, to counter the malign 
activities that they have ongoing much more effectively than we 
have been in recent years. The partners out there are eager to 
see that kind of leadership from the United States, and they 
will certainly welcome and be part of efforts along those 
lines.
    Mr. McLaughlin. I don't think I would add anything to that.
    Mr. Gallagher. And then, secondly, there has been some talk 
about safe zones in Syria today. I know we have heard that on 
the call with King Salman of Saudi Arabia, the President 
discussed the use of safe zones in Syria and Yemen, I believe.
    Could you talk a bit more about the risks and rewards of 
going down that path right now, and what questions do we need 
to answer before we march forward with safe zones?
    General Petraeus. Well, this is something that I have 
actually recommended for a number of years, although once 
Russia intervened, this became a much dicier proposition. And I 
think the issue now is one of, if there is to be a safe zone, 
then clearly you are going to have to have an agreement with 
Russia on that, or you are going to have to be willing to 
establish that you are going to fight for the security of that 
safe zone, and if Bashar al-Assad's forces bomb innocent 
civilians, that, you know, his Air Force is going to be 
grounded.
    I think it would be very important that everyone 
understands what the ramifications, what essentially the rules 
of engagement would be for such a safe zone. This is not a 
place where I would want to leave a lot of ambiguities, for 
fear that you could end up in an escalating situation.
    At the end of the day, I think it is very possible that 
these areas that are outside the control of the Bashar al-Assad 
regime, supported by Iran and Hezbollah and the Russians and 
other Shia militia, that these areas may actually begin to firm 
into some zone, maybe one under the control of Turkey in the 
northwest, a Syrian Kurdish--and that will be a tough issue 
with the Turks; there will have to be assurances from us--and 
then perhaps a Sunni Arab zone that could stretch from Daraa in 
the south, perhaps all the way up to the Deir ez-Zor and maybe 
even up to Raqqa, that these zones could ultimately become some 
element in a future if there is a federal form of government 
but, at an interim basis, could actually reduce this bloodshed, 
which I highlighted earlier as being one of the overriding 
objectives at this point, much more important than whatever 
efforts are ongoing to get a pluralist democracy into Damascus, 
which I think is very unlikely.
    Mr. McLaughlin. If I could just add a little bit to that. I 
recommended that we pursue a safe zone when I testified here 
about a year ago. It has become harder. I think there is still 
merit in considering doing this, in large part because it is 
hard.
    What I mean by that is that is what leaders do. Leaders 
take on hard things. I am not lecturing this committee, but we 
are now seen as being behind the curve in the Middle East, as 
having allowed a vacuum to open up, and Putin has moved into 
it. So taking on a really hard job like that would demonstrate 
leadership that would put us back in the center of things.
    And when I say it is hard, it is for all the reasons 
General Petraeus mentioned. You would have to tell the 
Russians: You stay out of there, or do it with us, but let's 
not get in the clash in there.
    You would have to have a way to ensure that it wasn't 
infiltrated by terrorists. Hard, hard stuff.
    And you would have to protect it. You would take risks, but 
once again, it would show leadership in what I think is the 
most consequential event taking place on the face of the Earth 
today.
    Mr. Gallagher. Well, thank you both for your leadership and 
for a career of doing very hard things.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    General Petraeus, Mr. McLaughlin, I wanted to ask you, you 
know, obviously you can turn on any cable news station and 
learn about some of the more dangerous places in the world as 
far as Syria is concerned, different parts of the Middle East, 
but are there parts of the undeveloped world or even some 
suburb in Europe that should be getting attention and focus or 
that we should be worried about that no one is talking about 
right now?
    Mr. McLaughlin. Well, that is kind of what I meant at the 
end of my remarks when I said we will probably be surprised by 
something that General Petraeus and I have not mentioned. It 
could be--and I could give you so many examples from the past 
on that score.
    I would say Sub-Saharan Africa. Among other things, a large 
portion, perhaps a majority of the refugees migrating to Europe 
actually come from Africa, not from the Middle East, because of 
conditions there. Not every country there is doing badly. In 
fact, there are a lot of hopeful signs in Africa. But a number 
of them are suffering from the kind of societal stresses that I 
suggested would come about as a result of burgeoning population 
and a huge youth bulge in those societies as distinct from the 
pensioner bulge we have in the West. So that is one thing that 
is not in the headlines particularly.
    You know, oddly, Venezuela is not much in the headlines, 
but that is a place that looks close to meltdown to me: a 
shortage of goods, unpopular President, authoritarian steps 
being taken in the country that has the largest proven oil 
reserves in the world and that is a stone's throw from us. That 
is another one.
    Colombia, I think, needs a look, because they have come to 
a really inventive agreement on how to stop a war that went on 
for decades there, but it is not perfect. And the problems that 
have devilled Colombia, in which the United States has played 
an enormously important role moving forward--it is one of the 
few successful, really totally successful partnerships to fight 
both terrorism and narcotics, and very appreciated by the 
Colombians.
    So there are a lot of places in the world that we haven't 
mentioned that--you could almost have a hearing here on parts 
of the world that aren't in the headlines but which may hold 
potential for trouble.
    Mr. Veasey. You know, the Ivory Coast, about a year and a 
half ago, there was an explosion there, and it got--it 
dominated the news for maybe 24, 48 hours, and then, after 
that, there was absolutely no talk about it, and I haven't 
heard anything else about terrorism in that part of the world 
since then, and so that kind of thing is very worrisome.
    I also wanted to ask both of you, what is your assessment 
of the administration's recent reorganization of the NSC 
[National Security Council]? I know that was talked about a 
lot. And what do you think the inclusion of political staff on 
the NSC does to alter how that runs?
    General Petraeus. First of all, my sense is that this has 
been worked out. The idea that you would have an NSC meeting 
and a meeting on national security where the individual 
responsible for providing intelligence analysis might not be 
there, I think, was, you know, very unlikely. The Chairman of 
the Joint Chiefs has a statutory role as the senior military 
adviser to the President and National Security Council. The CIA 
Director has been added back. He, of course, by law is 
responsible directly to the President for covert action, does 
not go through the DNI for that, so he has to be at that table 
as well. And, again, my sense is that they have worked this 
out.
    There have been individuals in the room from time to time 
that were from more of the political strategy side of the 
house. It is unprecedented, I think, to have someone explicitly 
made a statutory member in this case. And so, again, as with 
all of these, you are going to have to see how this works out.
    Mr. McLaughlin. I would just add that someone needs to 
think through what is the role of the Director of National 
Intelligence. The CIA Director is always very prominent and 
holds a special role, inevitably, but by law, 2004, by law, the 
Director of National Intelligence is the Nation's chief 
intelligence officer and the only one truly empowered to bring 
together the view of the entire intelligence community. So, 
unless they are going to change that and tell the CIA Director 
to do it, I think the DNI--they have to figure out, where does 
the Director of National Intelligence fit in the mix?
    Mr. Veasey. Mr. Chairman, I yield back. Thank you.
    The Chairman. Thank you.
    Our witnesses have a hard stop at 1 o'clock. And so I 
apologize to the three of you, but I will tell you what. We 
will put you all at the head of the queue for next week's 
hearing with the Vice Chiefs on the state of our military, 
which is the followup to this.
    Thank you both for your patience, for your insights. It has 
been terrifically helpful.
    And, with that, the hearing stands adjourned.
    [Whereupon, at 1:02 p.m., the committee was adjourned.]

      
=======================================================================



                            A P P E N D I X

                            February 1, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 1, 2017

=======================================================================

   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 1, 2017

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. I am deeply disturbed by President Trump's executive 
order freezing refugee resettlement from certain Muslim-majority 
countries and ceasing the intake of any refugees from Syria. This 
action is contrary to the very core principles of our democracy, and it 
endangers our service members abroad.
    In your opening statement, you noted that ``our most important ally 
in this war is the overwhelming majority of Muslims who reject al 
Qaeda, Daesh, and their fanatical, barbaric worldview.'' Do you believe 
that this executive order--which bars these allies from the United 
States, many of whom who have put their lives on the line to assist and 
fight alongside our service members--undermines the critical 
relationship you characterized in your opening statement? Does it 
provide ammunition to terrorists who seek to portray this fight as a 
war between America and Islam?
    You also stated that the defeat of Islamic extremist groups 
requires a military component. I believe this executive order 
undermines our service members' security in theater and threatens the 
goodwill among the coalition of the military components at work in our 
fight against extremist organizations. Would you agree with that 
assessment?
    General Petraeus. The executive order referred to in the question 
was, of course, blocked by court action, as has been the subsequent EO, 
which contained a number of changes (e.g., exempting green card holders 
and those already holding visas) and did not include Iraq. So, at this 
point, it is difficult to assess whether the existing EO, if allowed by 
the courts, or a subsequent EO with further changes, will undermine 
critical relationships. Certainly, the whole endeavor has been 
unhelpful in certain respects given the sentiments it may be depicted 
as reflecting. And it is possible that terrorists may try to use this 
effort to make the ongoing war against ISIS and AQ and their affiliates 
a war between Islam and the U.S. or the western world. That underscores 
the importance of U.S. policy clearly identifying that we and our 
coalition partners (included in which are Islamic countries, of course) 
are united in fighting Islamic extremists, not those of the Islamic 
faith.
    Mr. Langevin. I am very glad that in Mr. McLaughlin's opening 
statement, he included cyber threats in your ``urgent bucket'' when 
discussing the ongoing challenges we face in the world today. Like you, 
threats in cyberspace concern me greatly. Rather than looking 
retrospectively and instead looking ahead to the future both at home 
and abroad, how should we ensure the Department of Defense is prepared 
to combat information warfare operations, which are increasingly being 
enabled by cyber attacks? What about when a foreign military is 
conducting an operation targeting a domestic institution? Does DOD have 
a role in such a scenario?
    General Petraeus. I believe that DOD is moving ahead as quickly as 
resources allow to be prepared for enemy combat operations in 
cyberspace--to defend against them, identify the sources of them, and 
respond to them. In a number of cases, however, it is important that 
DOD efforts be complemented by those of DHS, domestic law enforcement 
authorities, and assistance from internet service providers and social 
media platforms. What about when a foreign military is conducting an 
operation targeting a domestic institution? Does DOD have a role in 
such a scenario? DOD assets certainly can have a role, as do elements 
of the IC and the FBI and other law enforcement elements, but DHS has 
been assigned the lead--the ``quarterback''--for guiding responses to 
attacks on domestic institutions. While Congress finally passed 
legislation on cyber security responsibilities and authorities in 
recent years, there clearly is further legislation needed and, more 
importantly, there clearly also are additional resources needed, 
especially for DHS.
    Mr. Langevin. As ranking member of the Subcommittee on Emerging 
Threats and Capabilities, I have been a long-time advocate for the 
cultivation and operationalization of matured, advanced technologies to 
assist our warfighter whenever and wherever we are able. In light of 
all the threats we face that have been mentioned here today--many of 
which will require non-traditional, innovative responses--would you 
agree that it is critical the Department of Defense continue to 
prioritize advanced technologies, such as directed energy and 
autonomous systems, in order to provide for our warfighter and maintain 
our technological superiority on the joint battlefield?
    What do you believe must be done in order to make our warfighters 
more comfortable utilizing these advanced technologies?
    General Petraeus. Yes, I agree.
    Provide them the resources needed to enable education and training 
on advanced systems--and also, of course, to ensure that we 
consistently put cutting edge technologies in the hands of our men and 
women in uniform.
    Mr. Langevin. I am very glad that in your opening statement, you 
included cyber threats in your ``urgent bucket'' when discussing the 
ongoing challenges we face in the world today. Like you, threats in 
cyberspace concern me greatly. Rather than looking retrospectively and 
instead looking ahead to the future both at home and abroad, how should 
we ensure the Department of Defense is prepared to combat information 
warfare operations, which are increasingly being enabled by cyber 
attacks? What about when a foreign military is conducting an operation 
targeting a domestic institution? Does DOD have a role in such a 
scenario?
    Mr. McLaughlin. 1. I believe DOD is reasonably well prepared to 
combat information operations enabled by cyber. This said, I believe 
Russia, China, Iran, and North Korea have given this a very high 
priority over the years. This is an asymmetric way for them to 
compensate for the superior conventional and other power possessed by 
the U.S. But the need for dominance in this area is now well understood 
in military and intelligence circles and that augurs well for our 
future capabilities. The Russian cyber interference in our election has 
in my view been a crystalizing event that drives home the need for 
cyber superiority in exploitation, attack, and defense--the three 
domains that come together in this field.
    2. If a foreign military is targeting a U.S. domestic institution 
with cyber techniques, my understanding is that DHS would be the 
overall coordinator of U.S. response. But DHS would assuredly seek 
assistance from both military and intelligence sources in scoping the 
problem and organizing response.
    Mr. Langevin. As ranking member of the Subcommittee on Emerging 
Threats and Capabilities, I have been a long-time advocate for the 
cultivation and operationalization of matured, advanced technologies to 
assist our warfighter whenever and wherever we are able. In light of 
all the threats we face that have been mentioned here today--many of 
which will require non-traditional, innovative responses--would you 
agree that it is critical the Department of Defense continue to 
prioritize advanced technologies, such as directed energy and 
autonomous systems, in order to provide for our warfighter and maintain 
our technological superiority on the joint battlefield?
    Mr. McLaughlin. The short answer is yes of course. My conviction on 
this score comes from the realization that we live in the midst of the 
most revolutionary period of technological advance in history. Never 
has the time between discovery of scientific principle and its 
application been so short. In both military and intelligence endeavor 
we always have to be ahead of the adversary technologically because the 
adversary these days will always possess advanced capabilities that are 
commercially available. Hence the need for advanced R&D and 
technological innovation without peer.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. STEFANIK
    Ms. Stefanik. Russia and China have both exercised an increased use 
of cyber capabilities to support their national security objectives. 
This threat is also used by terrorist organizations. As General 
Petraeus described it, the ``. . . ideological caliphate in cyber 
space. . .'' As we continue to develop our own cyber defenses, how do 
you anticipate this threat to evolve and how do you believe we can best 
respond?
    General Petraeus. I believe the breakthroughs in this arena will 
come through a partnership between DOD, IC, and domestic law 
enforcement elements with internet service providers and social media 
platform providers who use AI to identify and remove what clearly are 
extremist sites, messages, and other activities in cyberspace.
    Ms. Stefanik. Russia and China have both exercised an increased use 
of cyber capabilities to support their national security objectives. 
This threat is also used by terrorist organizations. As General 
Petraeus described it, the ``. . . ideological caliphate in cyber 
space. . .'' As we continue to develop our own cyber defenses, how do 
you anticipate this threat to evolve and how do you believe we can best 
respond?
    Mr. McLaughlin. Terrorist organizations have been slow to come to 
cyber as a weapon per se--leaving aside the advantages they derive from 
imaginative use of social media and the internet generally. But with 
the increasing cyber literacy that marks all populations these days and 
with the wealth that ISIS in particular has amassed, I believe we 
cannot be at all complacent about terrorist progress in this arena. So 
I anticipate that it is only a matter of time before we begin to see 
cyber used as an offensive tool by terrorist organizations who will 
realize that the danger they can do with key-strokes may equal in 
impact what they can achieve with conventional bombs. This calls for 
continued laser-like focus in developing intelligence on terrorist 
capabilities, to include the sorts of skills they are prioritizing in 
recruitment efforts. Once we understand these things we can prepare 
appropriate offensive and defensive strategies to check mate developing 
terrorist capabilities.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. O'ROURKE
    Mr. O'Rourke. I very much appreciate your comments regarding an 
updated Authorization for Use of Military Force for the wars we 
currently wage. Of course, finding consensus on what a new AUMF should 
include has proven challenging for Congress. Can the two of you provide 
recommendations on how to improve our current AUMF?
    General Petraeus. There is a classified model for a revised AUMF on 
which we were working in the interagency before I left government. My 
recommendation is that you use the existing draft in the IA (presumably 
a copy can be obtained from the NSC Legal Counsel) as a departure 
point.
    Mr. O'Rourke. I very much appreciate your comments regarding an 
updated Authorization for Use of Military Force for the wars we 
currently wage. Of course, finding consensus on what a new AUMF should 
include has proven challenging for Congress. Can the two of you provide 
recommendations on how to improve our current AUMF?
    Mr. McLaughlin. General Petraeus informs me that there was a 
classified model for a revised AUMF being worked in the interagency 
before he left government. My recommendation is that you use the 
existing draft in the interagency records (presumably a copy can be 
obtained from the NSC Legal Counsel) as a departure point. My only 
thought is that which I always applied to guidance given to 
intelligence agencies: that a revised AUMF be general enough to cover a 
variety of contingencies in a very fluid world, so as not to require 
constant revision or stimulate continuous debate--but specific enough 
to leave little doubt about what U.S. forces are permitted to do.

                                  [all]
</pre></body></html>
